<html>
<title> - H.R. 37, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO UPDATE THE FEASIBILITY AND SUITABILITY STUDIES OF FOUR NATIONAL HISTORIC TRAILS AND PROVIDE FOR POSSIBLE ADDITIONS TO SUCH TRAILS; H.R. 640, TO ADJUST THE BOUNDARIES OF SANTA MONICA MOUNTAINS NATIONAL RECREATION AREA, AND FOR OTHER PURPOSES; AND H.R. 1000, TO ADJUST THE BOUNDARY OF THE WILLIAM HOWARD TAFT NATIONAL HISTORIC SITE IN THE STATE OF OHIO, TO AUTHORIZE AN EXCHANGE OF LAND IN CONNECTION WITH THE HISTORIC SITE, AND FOR OTHER PURPOSES.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                    H.R. 37, H.R. 640 and H.R. 1000

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 26, 2001

                               __________

                           Serial No. 107-21

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
71-929                     WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 26, 2001...................................     1

Statement of Members:
    Bereuter, Hon. Doug, a Representative in Congress from the 
      State of Nebraska..........................................     4
        Prepared statement on H.R. 37............................     5
    Christensen, Hon. Donna, a Delegate to Congress from the 
      Virgin Islands.............................................     3
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California........................................    11
        Prepared statement on H.R. 640...........................    12
        Letters submitted for the record.........................    14
     Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 37, H.R. 640 and H.R. 1000....     2
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio..............................................     6
        Letters from Dr. Carol Kerlakian and Michael Costantini 
          submitted for the record...............................     9
    Sherman, Hon. Brad, a Representative in Congress from the 
      State of California........................................    20
        Press release submitted for the record...................    21

Statement of Witnesses:
    Berger, Hon. Michael, Chairman, Santa Monica Mountains 
      Conservancy, Newbury Park, California......................    49
        Prepared statement on H.R. 640...........................    50
    Hearty, Patrick, National Trails Committee Chair, National 
      Pony Express Association, Inc., South Jordan, Utah.........    46
        Prepared statement on H.R. 37............................    47
    Stevenson, Katherine H., Associate Director, Cultural 
      Resource Stewardship and Partnerships, National Park 
      Service, U.S. Department of the Interior, Washington, DC...    25
        Prepared statement on H.R. 37............................    26
            Map A................................................    28
            Map B................................................    29
        Prepared statement on H.R. 640...........................    30
        Prepared statement on H.R. 1000..........................    31
    Watson, Jeanne H., Oregon-California Trail Association, 
      Orinda, California.........................................    42
        Prepared statement on H.R. 37............................    43
    Watson, William C., Oregon-California Trail Association, 
      Orinda, California.........................................    37
        Prepared statement on H.R. 37............................    38

 
    H.R. 37, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO UPDATE THE 
 FEASIBILITY AND SUITABILITY STUDIES OF FOUR NATIONAL HISTORIC TRAILS 
AND PROVIDE FOR POSSIBLE ADDITIONS TO SUCH TRAILS; H.R. 640, TO ADJUST 
THE BOUNDARIES OF SANTA MONICA MOUNTAINS NATIONAL RECREATION AREA, AND 
   FOR OTHER PURPOSES; AND H.R. 1000, TO ADJUST THE BOUNDARY OF THE 
  WILLIAM HOWARD TAFT NATIONAL HISTORIC SITE IN THE STATE OF OHIO, TO 
AUTHORIZE AN EXCHANGE OF LAND IN CONNECTION WITH THE HISTORIC SITE, AND 
                          FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, April 26, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to other business, at 10:05 
a.m., in Room 1334, Longworth House Office Building, Hon. Joel 
Hefley [Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. Now on to other Committee business. This 
morning the Subcommittee on National Parks, Recreation and 
Public Lands will hear testimony on three bills: H.R. 37, H.R. 
640, and H.R. 1000.
    The first bill, H.R. 37, was introduced by Congressman Doug 
Bereuter of Nebraska. This bill would amend the National Trails 
System Act to authorize the Secretary of Interior to study a 
number of specific routes and cutoff trails that may be 
suitable and appropriate for designation as components of the 
Oregon National Historic Trail, first; and, number two, the 
Pony Express National Historic Trail; and, number three, the 
California National Historic Trail; and, number four, the 
Mormon Pioneer National Historic Trail.
    Congressman Bereuter, we notice that a lot of trails went 
through Nebraska but no one wanted to stay; they just kept 
moving on.
    [Laughter.]
    The second bill, H.R. 640, was introduced by our Committee 
colleague, Elton Gallegly, and Congressman Brad Sherman of 
California. This bill would adjust the northern boundary of the 
Santa Monica Mountains National Recreation Area by adding some 
3,000 acres of public and private lands to enhance a wildlife 
corridor between the Simi Hills and the Santa Monica Mountains.
    The third bill, H.R. 1000, was introduced by Congressman 
Portman of Ohio. This bill would authorize the Secretary of 
Interior to adjust the boundary of the William Howard Taft 
National Historic Site by acquiring a parcel of adjacent 
private property of less than one acre and exchanging it for a 
parcel of National Park Service property of less than one acre 
located nearby. It would also authorize a boundary expansion 
and for the acquisition of an additional parcel of property 
adjacent to the Taft site.
    I would like to thank Congressman Bereuter, Congressman 
Portman, Congressman Gallegly, and Congressman Sherman, and all 
of our witnesses, for being here today to testify on these 
bills. And I would like to also mention that the two witnesses 
scheduled to testify in support of H.R. 1000 had to withdraw 
due to scheduling conflicts.
    At this point I would ask unanimous consent that 
Congressman Bereuter be permitted to sit on the dais following 
his statement to participate in the hearing. Is there any 
objection to that? Hearing none, so ordered.
    [The prepared statement of Chairman Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
              National Parks, Recreation, and Public Lands

    This morning, the Subcommittee on National Parks, Recreation and 
Public Lands will hear testimony on three bills - H.R. 37, H.R. 640, 
and H.R. 1000.
    The first bill, H.R. 37, was introduced by Congressman Doug 
Bereuter of Nebraska. This bill would amend the National Trails System 
Act to authorize the Secretary of Interior to study a number of 
specific routes and cutoff trails that may be suitable and appropriate 
for designation as components of the (1) Oregon National Historic 
Trail; (2) the Pony Express National Historic Trail; (3) the California 
National Historic Trail; and (4) the Mormon Pioneer National Historic 
Trail.
    The second bill, H.R. 640, was introduced by our Committee 
colleague Elton Gallegly and Congressman Brad Sherman of California. 
This bill would adjust the northern boundary of the Santa Monica 
Mountains National Recreation Area by adding some three thousand acres 
of public and private lands to enhance a wildlife corridor between the 
Simi Hills and the Santa Monica Mountains.
    The third bill, H.R. 1000, was introduced by Congressman Portman of 
Ohio. This bill would authorize the Secretary of Interior to adjust the 
boundary of the William Howard Taft National Historic Site by acquiring 
a parcel of adjacent private property of less than one acre and 
exchanging it for a parcel of National Park Service property of less 
than one acre located nearby. It would also authorize a boundary 
expansion and for the acquisition of an additional parcel of property 
adjacent to the Taft Site.
    I would like to thank Congressman Bereuter, Congressman Portman, 
Congressman Gallegly, Congressman Sherman, and all of our witnesses for 
being here today to testify on these bills. I would also like to 
mention that the two witnesses scheduled to testify in support of H.R. 
1000 had to withdraw due to scheduling conflicts.
    At this point, I would like to ask unanimous consent that 
Congressman Bereuter be permitted to sit on the dais following his 
statement to participate in the hearing. Is there any objection? 
Hearing none, so ordered.
    I now turn the time over to the Ranking Member, Ms. Christensen.
                                 ______
                                 
    Mrs. Christensen?

  STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE TO 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I would like to 
welcome our colleagues this morning.
    We are going to hear testimony on three unrelated bills. 
The first, H.R. 37, would amend the National Trails System Act 
to update previously completed studies of three trails, and the 
purpose of these updates would be to examine additional routes 
and cutoffs that were not considered in the initial studies of 
those trails.
    The second measure before us today, H.R. 640, would adjust 
the boundary of the Santa Monica Mountains National Recreation 
Area near Los Angeles to include an additional 3,697 acres, and 
the purpose of that addition is to facilitate wildlife 
migration between the Santa Monica Mountains and several other 
mountain ranges to the north.
    There has been some concern expressed that the addition of 
this acreage will place a number of parcels of private property 
within the boundary of the NRA. However, it is our 
understanding that relevant property owners are aware of the 
proposed boundary change and no opposition to this measure has 
developed, and hopefully today's hearing will resolve this 
issue completely.
    Finally, I am not sure if we have any panelists remaining 
on H.R. 1000, but it would authorize the National Park Service 
to exchange a parcel of Federal land at the William Howard Taft 
National Historic Site in Cincinnati for a parcel owned by a 
nearby charter school. If completed, the exchange will allow 
visitors to park closer to the Taft home and facilitate a 
planned expansion of the charter school.
    In addition, the bill would alter the existing boundary of 
the Taft site to include another parcel of private property 
near the original Taft estate. The National Park Service has 
requested that the property be included within the boundary so 
that the land could be acquired if the owner ever decides to 
sell the land.
    We look forward to learning about this site and the other 
proposed changes from today's witnesses, and again, welcome to 
the Committee.
    Mr. Hefley. Thank you very much. I think we will start with 
Mr. Bereuter and Mr. Portman. Mr. Chairman, if you decide you 
want to stay, we will invite you to sit up here as well, to 
participate in the hearing.
    Congressman Bereuter?

 STATEMENT OF THE HONORABLE DOUG BEREUTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Bereuter. Thank you, Mr. Chairman, Delegate 
Christensen, members of the Subcommittee. I thank you for this 
opportunity to testify.
    My first two terms in Congress were on this Subcommittee, 
and I thought it was an immensely enjoyable experience. I am a 
co-chairman of the Trails Caucus, which has been operating and 
growing in strength for the last three Congresses, and I 
encourage all of you to participate if you are not already 
members.
    A little good-natured banter, I assume it is good-natured, 
from the Chairman on the Colorado-Nebraska issue there, as 
usual. I would like to point out, a lot of people did stay in 
Nebraska. It was the survival of the fittest. The hardiest 
people stayed.
    [Laughter.]
    Actually, people in a 16-county part of Nebraska, including 
most of my district, have the longevity record for people that 
live longest. That is literally true, except that La Jolla has 
recently passed us in longevity. It is a survival of the 
fittest. But one of my smart-aleck colleagues from California 
suggested that people really don't live longer in Nebraska, it 
just seems longer.
    [Laughter.]
    Mr. Hefley. Please accept my apologies. Obviously, I 
misspoke.
    Mr. Bereuter. This legislation, as you can see and imagine 
from the number, was introduced the first day of this Congress, 
and I introduced it in the previous Congress. The bill is 
necessary, and I hope noncontroversial. It is a straightforward 
effort to provide for a one-time feasibility study updating 
four national historic trails: Oregon, California, Mormon 
Pioneer, and Pony Express.
    The measure simply recognizes the fact there are additional 
routes and cutoffs which may deserve inclusion in the National 
Trails System. In some cases, many cases, for example in the 
Platte River Valley, these trails really took the same course 
or were on both sides or one or the other side of the river, 
and they have not been designated as such but have only one 
designation. This would provide, if the Park Service chooses, 
an opportunity to designate several trails using the same 
route.
    During the update period, the National Park Service will 
work with the appropriate trails groups and other interested 
parties to develop information on any new segments of trail, in 
an effort to determine if it meets the criteria, they meet the 
criteria for addition to the system. No condemnation of private 
lands or Federal leases is to be contemplated to add any of 
these routes to the trail, and I think the legislation makes 
that clear.
    Although the National Park Service is supportive of efforts 
to examine these additional routes, it has determined that 
legislation is needed to provide that authorization. That is 
the purpose of H.R. 37, and you will be hearing from the Park 
Service shortly.
    All four trails covered in this legislation were 
instrumental, of course, in opening the American West, but each 
has its unique story to tell. The California Trail enabled 
70,000 people to follow their dreams to the Golden State 
between 1849 and 1850. The Oregon Trail made it possible for 
fur traders, settlers, and others to reach the Pacific 
Northwest.
    Although it lasted only 18 months, the Pony Express 
achieved a cherished role in American lore. Its daring riders, 
which included Buffalo Bill Cody and Wild Bill Hickok, were 
able to deliver mail from St. Joseph, Missouri to Sacramento, 
California in 10 days. The Mormon Pioneer Trail, of course, 
marks the route used for church members as they headed West in 
search of religious freedom.
    These trails all follow, at least in part, the Platte River 
in Nebraska, and we are pleased to have as one of our nicknames 
the ``Historic Trails State.''
    I was pleased to note that during the 102nd Congress, 
legislation which I introduced to designate the California 
National Trail and the Pony Express Trail as components of the 
National Trails System, which moved of course through this 
Subcommittee, was enacted. The bill being discussed today will 
build on that effort and enable even greater recognition of 
these contributions made by these bold and courageous pioneers.
    Those who used the trails endured hardships that are 
difficult to imagine. Of course they survived hazards such as 
wild animals, blizzards, floods, as well as scarcity and 
disease. To those who bravely made it to their destinations and 
those who died along the way, I think we owe a huge debt of 
gratitude. I believe that H.R. 37 will help to give proper 
recognition to the many historic and heroic individuals who 
played such an important part in the settling of the American 
West.
    I would also like to take this opportunity to express my 
appreciation to the many dedicated volunteers who have been so 
supportive of the National Trails System in general, but also 
to these particular trails. I would like to thank Bill and 
Jeanne Watson with the Oregon-California Trail Association; Pat 
Hearty with the Pony Express Trail Association; Ron Anderson 
with the Mormon Trail Association; and Loren Horton with the 
Iowa Mormon Trail Association. The efforts to preserve and 
provide recognition for these trails are truly a grassroots 
labor of love involving thousands of individuals, and the 
people I have named epitomize those individuals.
    So again, thank you for holding the hearing and giving me 
an opportunity to testify in support of H.R. 37. I would 
appreciate the Subcommittee's favorable consideration of the 
bill. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bereuter follows:]

Statement of The Honorable Doug Bereuter, a Representative in Congress 
                 from the State of Nebraska, on H.R. 37

    Chairman Hefley, Delegate Christensen and Members of the 
Subcommittee: I would like to begin by thanking you for the opportunity 
to present testimony regarding H.R. 37, a bill I introduced on January 
3, 2001. During the past 106th Congress, I introduced the same 
legislation.
    This bill is necessary and should be non-controversial. It is a 
straight-forward effort to provide for a one-time feasibility study 
update for four national historic trails--Oregon, California, Mormon 
and Pony Express.
    The measure simply recognizes the fact that there are additional 
routes and cutoffs which may deserve inclusion in the National Trails 
System. During the update period, the National Park Service will work 
with the appropriate trails groups and other interested parties to 
develop information on any new segment of trail in an effort to 
determine if it meets the criteria for addition to the system. No 
condemnation of private lands or Federal leases is to be contemplated 
to add any of these routes to the trails.
    Although the National Park Service is supportive of efforts to 
examine these additional routes, it has determined that legislation is 
needed to provide the authorization. That is the purpose of H.R. 37.
    All four trails covered in this legislation were instrumental in 
opening the American West, but each has its own unique story to tell. 
The California Trail enabled 70,000 people to follow their dream to the 
Golden State in 1849 and 1850. The Oregon Trail made it possible for 
fur traders, settlers and others to reach the Pacific Northwest.
    Although it lasted only about 18 months, the Pony Express achieved 
a cherished role in American lore. Its daring riders, which included 
Buffalo Bill Cody and Wild Bill Hickok, were able to deliver mail from 
St. Joseph, Missouri to Sacramento, California in 10 days. The Mormon 
Pioneer Trail allowed the church members an opportunity to head west in 
search of religious freedom.
    These trails all follow at least part of the Platte River and 
Nebraska is proud to have as one of its nicknames the ``Historic Trails 
State.'' Many used the route through Nebraska to reach their goal 
further west. Those with more foresight decided to settle in Nebraska.
    I am pleased to note that during the 102nd Congress I introduced 
the legislation which was enacted to designate the California National 
Historic Trail and the Pony Express National Historic Trail as 
components of the National Trails System. The bill being discussed 
today will build on that effort and enable even greater recognition of 
the contributions made by these bold and courageous pioneers. Those who 
used the trails endured hardships that are difficult to imagine. They 
survived hazards such as wild animals, blizzards and floods as well as 
scarcity and disease.
    To those who bravely made it to their destination and those who 
died along the way we owe a huge debt of gratitude. I believe that H.R. 
37 will help to give proper recognition to the many heroic individuals 
who played such an important role in settling the American West.
    I would also like to take this opportunity to express my 
appreciation to the many dedicated volunteers who have been so 
supportive of these national trails. In particular, I would like to 
thank Bill and Jeanne Watson, with the Oregon-California Trail 
Association, Pat Hearty with the Pony Express Trail Association, Ron 
Anderson with the Mormon Trail Association, and Loren Horton with the 
Iowa Mormon Trail Association. The efforts to preserve and provide 
recognition for these trails is truly a grassroots labor of love 
involving thousands of individuals.
    Again, thank you for holding this hearing and giving me the 
opportunity to testify in support of H.R. 37. I would appreciate the 
Subcommittee's favorable consideration of this legislation.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Bereuter. You have really been 
one of Congress' champions of the Trails System, and you are to 
be commended for that.
    Mr. Portman?

  STATEMENT OF THE HONORABLE ROB PORTMAN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Portman. Thank you very much, Mr. Chairman, and I just 
want to say that it may seem like people live longer in 
Nebraska. However, in Cincinnati, about the time of William 
Howard Taft's life, Mark Twain observed that he had hoped to be 
in Cincinnati when the world ended because everything happens 
10 years later there.
    [Laughter.]
    So your longevity figures may not be accurate because you 
can add 10 years to Cincinnati's.
    Thank you, Mr. Chairman and Ranking Member Christensen, 
other members of the Subcommittee, for being here this morning 
to hear us talk about these relatively small issues on the 
national front that are very important to us locally. Mine is 
H.R. 1000, well described by both the Chairman and Ranking 
Member, and provides for a land transfer and boundary 
adjustment by the William Howard Taft National Historical Site 
in Cincinnati.
    William Howard Taft, as you know, is the only person who 
served as both President of the United States and as Chief 
Justice of the Supreme Court. The Taft family, of course, is 
very well known here in Washington. Robert Taft is still our 
Governor in Ohio, and we have had two distinguished Senators as 
part of the family.
    William Howard Taft, the Senior, was Solicitor General, 
Governor of the Philippines and Secretary of War before he 
became President. He was elected President, incidentally, by an 
electoral vote of 2 to 1, and the legacy of his administration 
is still very much a part of our American life.
    In 1921 he realized his true lifelong dream when President 
Warren Harding named him 10th Chief Justice of the Supreme 
Court of the United States. He was extremely proud. In fact, 
later he was quoted as saying, ``I'm not sure I remember having 
been President.''
    In any case, his boyhood home, you have talked about Ronald 
Reagan's boyhood home, his boyhood home is in Cincinnati, and 
he lived there until he was married. It is located in a very 
historic but urban community in Cincinnati. There is not much 
land left in that area, and it is very important that this land 
transfer take place to provide for adequate use of the 
property.
    It is now administered by the National Park Service, which 
has an excellent relationship, Mr. Chairman, with our 
community. In fact, the volunteerism of the community is 
noticeable there. They hold many events. There is a very active 
group that helps out and supports financially many of the 
activities that take place around the boyhood home.
    As again it has been well described, this provides for a 
land transfer between the Park Service and a charter school 
called the SABIS International School, Cincinnati. It is very 
beneficial for the Taft home because it allows visitors to park 
next to the site rather than parking on a very busy street or 
in a parking lot that is quite a ways away from the Taft 
center, and we really believe this is one reason we haven't had 
higher visitation, which I know all of us in the Congress and 
on this Subcommittee would like to see at our national park 
sites.
    The land the Park Service would receive in the transfer is 
not only much more convenient, helps attract a lot more 
visitors, but it also helps the Park Service to revert a 
portion of this area to green space. This green space would be 
consistent with the way the land looked back when William 
Howard Taft was growing up there, so it makes it more 
authentic. It is also very beneficial to the school. It turns 
out this charter school would like to expand, and the two plots 
of land they own are located directly across the street from 
each other. So it is a win-win situation.
    I have been working very closely with members of the 
school, and I am pleased to say they are fully supportive of 
this land transfer. This is not a Federal land grab. This is 
something that they support. And, Mr. Chairman, with your 
permission I would very much like to submit to the record a 
statement from the leadership of the SABIS School for the 
record this morning.
    Mr. Portman. Finally, the bill also expands the park's 
boundaries, as was noted, to include a building that has about 
40 apartments in it. I understand the owners of this building 
also are very supportive of being included within the boundary. 
They have an excellent relationship with the Park Service. In 
fact, the Park Service currently rents office space in that 
building, and its parking lot is already part of the historical 
site, so the parking lot for the apartment building is already 
part of the boundary.
    The owner and managing partner of the apartment building 
could not be here, as you said, this morning. However, he also 
has a strong statement of support I would like to submit for 
the record, with your permission.

    [The letters submitted for the record by Mr. Portman 
follow:]
[GRAPHIC] [TIFF OMITTED] T1929.011

[GRAPHIC] [TIFF OMITTED] T1929.012

    Mr. Portman. The cost to the Federal Government, as I 
understand it, would be zero or minimal, because these two 
pieces of land have been appraised and are of equal value, so 
it is my understanding there is no need for an appropriation 
for the exchange that this legislation would permit. As a 
result, the legislation does not authorize any new spending.
    I understand the Park Service may be interested in amending 
this bill, perhaps this morning. In the hearing, this will come 
up. They would like to allow use of some appropriated funds to 
purchase, should it be made available, this apartment building. 
And I am certainly willing to work with you, Mr. Chairman, and 
other members of the Subcommittee, Mrs. Christensen and others, 
as well as with the Park Service, to come to the appropriate 
agreement on this issue.
    In conclusion, Mr. Chairman, I would also like to thank 
your staff. Tod Hull has done a great job, as has Rob Howarth 
of your staff, in bringing this to this point. Again, I know 
that you are dealing with much bigger issues in the 
Subcommittee. This may seem relatively minor, but it is very 
important to our area and to the full use of this very 
important historic landmark in the Cincinnati community.
    Thank you very much, Mr. Chairman, members of the 
Subcommittee.
    Mr. Hefley. Thank you, Mr. Portman.
    Mr. Gallegly?

STATEMENT OF THE HONORABLE ELTON GALLEGLY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Gallegly. Thank you very much, Mr. Chairman and 
Subcommittee members, for holding this hearing today.
    Mr. Chairman, the Santa Monica Mountains Recreation Area, 
which stretches from West Hollywood in California's Los Angeles 
County to Point Mugu in my district in Ventura County, was 
established in 1978 and run by the National Park Service. It is 
home to 26 distinct natural communities, from freshwater 
aquatic habitats to oak woodlands. It is a critical haven for 
more than 450 animal species, including the Golden Eagle. It is 
considered unique among the National Park Service's holdings, 
and is easily accessible to 12 million people in Ventura and 
Los Angeles Counties.
    My bill, H.R. 640, which I introduced with my colleague and 
friend from the San Fernando Valley, Congressman Brad Sherman, 
would adjust the boundaries of the Santa Monica Mountains 
Recreation Area to enhance and protect the principal wildlife 
corridor between the Simi Hills to the north and the Santa 
Monica Mountains.
    It adds nearly 3,700 acres of public and private lands to 
the recreation area at no cost to the taxpayer. Of that, 2,797 
acres donated to the Santa Monica Mountains Conservancy, a 
State agency, will be transferred to the Parks Service. Another 
570 acres is publicly and privately owned open space. The rest, 
about 330 acres, is comprised of developed residential areas in 
the Cities of Calabasas and Agoura Hills.
    I want to stress that the recreation area designated would 
have no impact on the ability for either the cities or private 
property owners to develop their lands according to the 
applicable State laws and local ordnances. It does, however, 
give property owners greater access to Park Service assistance 
to environmentally enhance their properties if they so choose. 
That is why homeowner associations representing the communities 
that would be included in the designation and the Cities of 
Agoura Hills and Calabasas support this bill.
    I have attached with my testimony copies of letters from 
the cities and homeowner associations impacted by this 
legislation. Also attached is a letter from the State agency 
that is transferring its land to the Park Service.
    Protecting the wildlife corridor will promote greater 
ecosystem health and diversity to the Santa Monica Mountains, 
particularly for larger mammals like bobcats, badgers and 
mountain lions. It is hard to think that that is a part of the 
City of Los Angeles, isn't it?
    The 3,700 acres represent the last remaining open space 
parcels connecting the Santa Monica Mountains and the Simi 
Hills across the 101 Freeway. It is an important addition to 
the recreation area, and enjoys widespread support from all the 
communities. I ask my colleagues to support H.R. 640, Mr. 
Chairman, and with that I would yield back the balance of my 
time.
    [The prepared statement of Mr. Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    Thank you Mr. Chairman and subcommittee members for holding this 
hearing today.
    Mr. Chairman, the Santa Monica Mountains Recreation Area, which 
stretches from West Hollywood in California's Los Angeles County to 
Point Mugu in my district of Ventura County, was established in 1978 
and is run by the National Park Service. It is home to 26 distinct 
natural communities, from freshwater aquatic habitats to oak woodlands. 
It is a critical haven for more than 450 animal species, including the 
golden eagle. It is considered unique among the National Park Service's 
holdings, and is easily accessible to 12 million people in Ventura and 
Los Angeles counties.
    My bill, H.R. 640, which I introduced with my colleague Congressman 
Brad Sherman, would adjust the boundaries of the Santa Monica Mountains 
Recreation Area to enhance and protect the principal wildlife corridor 
between the Simi Hills to the north and the Santa Monica Mountains. It 
adds nearly 3,700 acres of public and private lands to the Recreation 
Area at no cost to the taxpayer.
    Of that, 2,797 acres donated to the Santa Monica Mountains 
Conservancy, a state agency, will be transferred to the Park Service. 
Another 570 acres is publicly and privately owned open space. The rest, 
about 330 acres, is comprised of developed residential areas in the 
Cities of Calabasas and Agoura Hills. I want to stress that the 
Recreation Area designation would have no impact on the ability for 
either the cities or private property owners to develop their lands 
according to applicable state laws and local ordinances. It does, 
however, give property owners greater access to Park Service assistance 
to environmentally enhance their properties, if they so choose.
    That is why homeowners associations representing the communities 
that would be included in the designation and the Cities of Agoura 
Hills and Calabasas support my bill. I have attached with my testimony 
copies of letters from the cities and homeowners associations impacted 
by this legislation. Also attached is a letter from the state agency 
that is transferring its land to the Park Service.
    Protecting the wildlife corridor will promote greater ecosystem 
health and diversity in the Santa Monica Mountains, particularly for 
larger mammals like bobcats, badgers and mountain lions. The 3,700 
acres represent the last remaining open space parcels connecting the 
Santa Monica Mountains and Simi Hills across the 101 Freeway.
    It is an important addition to the Recreation Area and enjoys 
widespread support from the communities. I ask my colleagues to support 
H.R. 640 and yield back the balance of my time.
                                 ______
                                 
    [Letters submitted for the record by Mr. Gallegly follow:]
    [GRAPHIC] [TIFF OMITTED] T1929.001
    
    [GRAPHIC] [TIFF OMITTED] T1929.002
    
    [GRAPHIC] [TIFF OMITTED] T1929.003
    
    [GRAPHIC] [TIFF OMITTED] T1929.004
    
    [GRAPHIC] [TIFF OMITTED] T1929.005
    
    [GRAPHIC] [TIFF OMITTED] T1929.006
    
    Mr. Hefley. Mr. Sherman?

 STATEMENT OF THE HONORABLE BRAD SHERMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Sherman. Thank you, Mr. Chairman, Ranking Member 
Christensen. My friend and colleague Elton Gallegly I think has 
set forth the case quite well. I will try to be as brief as 
possible.
    The Santa Monica Mountains National Recreation Area, as he 
points out, is accessible to well over 10 million people. It 
draws over 33 million visitors each year to its beaches and its 
mountains. It contains so many species that you are just not 
going to see in the more urbanized parts of Los Angeles County. 
And this acquisition would provide a critical wildlife 
corridor, so that we can have sustainable populations of 
various mammals, and so that our furry friends will no longer 
have to date their cousins.
    The bill would add some 3,700 acres to the park. Most of 
those acres, as Elton pointed out, are already in government 
ownership. Many of the other acres are already dedicated open 
space. The 900 acres that is privately owned will not be 
adversely affected, the rights of the property owners will not 
be adversely affected in any way. Land use planning will 
continue to be under the jurisdiction of the City of Calabasas, 
the City of Agoura Hills, or for the unincorporated area, Los 
Angeles County.
    We have letters of support not only as Elton mentioned, but 
also from the relevant State legislators, the county 
supervisor, and both of the two cities involved. What is more, 
and this is highly unusual, not a single person has come to me 
in opposition to this, and that is extraordinary because I 
represent some very opinionated people in the 24th 
Congressional District.
    In fact, every organization that could be called upon to 
support this bill, supports it. Yes, there are those private 
property owners, but they are represented by the Saratoga Hills 
Homeowners Association, the Saratoga Range Homeowners 
Association, the Liberty Canyon Homeowners Association, all of 
which support this bill, in large part because the bill will 
enhance the park, which is accessible to them, and will have no 
effect on the land use planning decisions for the use of their 
private property.
    I should also point out that with me here is Art Eck, the 
superintendent of the park, who informs me that this bill will 
not require any additional appropriations either for land 
acquisition, because the bill makes it clear that the only way 
the Federal Government will acquire land is through donation, 
nor for operations, because his current budget will allow him 
to operate these additional acres.
    I should point out that also with me is Michael Berger, who 
is Chair of the Santa Monica Mountains Conservancy which 
currently owns, as an agency of the State government, much of 
the land that will be donated to the Federal Government if this 
bill is adopted. Also here from Saratoga Hills is Norman 
Buring, who has taken upon himself to get hundreds of 
signatures on a petition in support of this bill. The very 
possibility that this bill might be contentious has immediately 
galvanized support in my district there, and has galvanized no 
opposition whatsoever.
[A press release submitted for the record by Mr. Sherman 
follows:]
[GRAPHIC] [TIFF OMITTED] T1929.009

[GRAPHIC] [TIFF OMITTED] T1929.010

    Mr. Hefley. Thank you very much. Are there any questions of 
this panel of witnesses?
    Mr. Bereuter, do you have any opposition in the State of 
Nebraska to expanding the Trails System, if that would be what 
the study would decide was appropriate? Has there been any 
organized opposition against that?
    Mr. Bereuter. Mr. Chairman, no, none that we are aware of 
at all. In fact, we don't think it is a major expansion. It is 
the redesignation of certain areas as multiple, in multiple 
names mostly, but there might be a few cutoffs that would be 
added by the Service. But we have heard no opposition to it 
from Nebraska or elsewhere at this point.
    Mr. Hefley. Are the trails that are designated at the 
present time, are they actually trails now that can be used by 
people to hike or horseback or whatever on, ride bikes?
    Mr. Bereuter. In most parts of the country they are not, 
Mr. Chairman. They use public right-of-ways for the most part, 
and are simply designations across what is farmland or 
rangelands, but mostly it is on public right-of-ways that you 
find the designation.
    Mr. Hefley. Do you find in Nebraska as we do in Colorado--I 
mean, we are probably drier than you are, but our eastern 
plains are very dry, and we still have the tracks of the Oregon 
Trail and the Santa Fe Trail. Do you find that in Nebraska as 
well?
    Mr. Bereuter. Yes, as a matter of fact, in a number of 
cases in the Platte Valley, and they have been preserved by, 
for example, the State Game and Parks Commission or by local 
entities. They are particularly pronounced in a few areas where 
the sod has never been changed, particularly in the rangeland 
of western Nebraska.
    For example, near Kimball you will find, right adjacent to 
I-80, the ruts, and they have now placed giant prairie schooner 
wheels in those ruts to give people an idea that something is 
significant there. So you can walk 100 yards from the rest stop 
and actually see the trail there near Kimball.
    Mr. Hefley. Mr. Portman, you seem to have a win-win 
situation for everybody. I think as the bill is written, there 
is--it is designated that the Park Service can acquire that 
additional apartment building, the additional space to expand 
it, by donation, and you indicated that they might be wanting 
to amend that. Are you amenable to an amendment that would 
allow them to use appropriated funds to buy that?
    Mr. Portman. Mr. Chairman, I think it probably makes sense. 
As I understand it, it would be a right of first refusal. It is 
to avoid the possibility that that property could be sold to 
another owner if the Park Service thought it was appropriate 
for them to have it.
    It is right next to the visitor center, and if you look at 
it, it is almost--there is a whole front part of a block that 
is the home and then some green space, the visitor center, 
hopefully we will have that parking lot closer now, and then 
there is the apartment building sitting right next to it. So it 
probably makes sense to have that option.
    I don't frankly understand what the other concerns of the 
Subcommittee might be in terms of putting in an authorization 
bill such language. I assume that would be an appropriations 
issue. But I am supportive of the concept of letting the Park 
Service have sort of a right of first refusal to that property, 
and apparently the owners are fine with it. They think that is 
a good idea, too. They have already got their parking lot as 
part of the Park Service boundary.
    Mr. Hefley. Thank you. Mr. Sherman and Mr. Gallegly, I am 
having a little trouble understanding the need for your bill. 
Most of the property we are talking about is already public 
open space land. It is owned by somebody. So that corridor, if 
there is a migration corridor for wildlife, it is there.
    The other part of it, the private land, is part of cities. 
It is subdivisions, and you are telling me that this will not 
make any difference to those private subdivisions or city land 
use planning. So I guess either you or your witnesses need to 
explain to me the need for the bill in light of what I have 
just said.
    Mr. Sherman. Mr. Chairman, if I can respond, then Art Eck, 
the superintendent of the park, can probably respond better 
than I can, and Elton Gallegly may be able to respond better 
than either one of us.
    This is really simply who will manage these lands which are 
part of the Santa Monica Mountains National Recreation Area. 
They are currently, for the most part, owned by and managed by 
the Santa Monica Mountains Conservancy, which is a special 
organization of State government really designed to acquire 
lands quickly, and then transfer them in many cases to the 
Santa Monica Mountains National Recreational Area, where the 
National Park Service can do a better job of managing, 
particularly with its expertise in dealing with the endangered 
and threatened species in the area.
    So the real effect of this bill is to transfer ownership, 
control, management, to the agency that has the greatest 
expertise in being able to deal with this property, 
transferring it from Mr. Berger's agency to Art Eck's 
stewardship.
    Mr. Gallegly. That is right.
    Mr. Sherman. It is relatively simple. I don't know if my 
colleague has a comment, and perhaps Art.
    Mr. Gallegly. If the gentleman would yield, and trying just 
to follow up on what Brad has said, and I really think that the 
Park Service could probably explain it in greater detail, but 
it would be too administratively complex to manage and 
understand. And with the Chairman's concurrence, maybe we could 
hear from the Park Service on that, because of the complexity 
of tying it all together and managing it.
    Mr. Hefley. We are going to hear from the Park Service in a 
panel here, so we will let them testify.
    All right. I have no further questions. Does the Committee 
have any questions?
    We thank this panel, and I again would welcome you, if you 
have time to stay, to participate in the rest of the hearing. 
In any case, we are delighted to have you here.
    The second panel will be composed of Ms. Kate Stevenson, 
Associate Director for Cultural Resources, Stewardship and 
Partnerships for the National Park Service in Washington, D.C., 
who will speak on each of the bills.
    Ms. Stevenson, if you will, we ordinarily have the 
witnesses, put them on a 5-minute clock, but you have three 
bills to talk about, so if you need a little more time than 
that, don't worry about it.

   STATEMENT OF KATHERINE H. STEVENSON, ASSOCIATE DIRECTOR, 
 CULTURAL RESOURCE STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK 
 SERVICE, DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY ART ECK, 
 SUPERINTENDENT, SANTA MONICA MOUNTAINS NATURAL RESOURCE AREA; 
AND KEVIN McMURRAY, ACTING SUPERINTENDENT, WILLIAM HOWARD TAFT 
                     NATIONAL HISTORIC SITE

    Ms. Stevenson. Thank you, Mr. Chairman. I think I can do it 
within the 5 minutes. That will allow you to ask whatever 
questions you might have.
    For H.R. 37, the trail amendment bill, the department 
supports this bill in concept, mindful of course of the 
budgetary constraints that the department and the Federal 
Government are under. This bill would update the feasibility 
and suitability studies of the Oregon, California, Pony 
Express, and Mormon Trails, and would study the routes and 
cutoffs not in the original designation.
    As you well know, being from Colorado, it is not that it is 
a single highway type trail. People used cutoffs and routes all 
around the main arteries, and those were not included in the 
original bill in some cases, and we want to make sure that any 
eligible portions are included within the trail system. Some of 
those, of course, are on top of other portions of other trails, 
but we want to make sure that they are designated as 
appropriate to the trails they are named.
    We commit to working closely with other Federal agencies, 
with the States, with local and tribal governments and with 
landowners during the studies and after designation, should you 
authorize the bill.
    For H.R. 1000, the adjustment of the William Howard Taft 
National Historic Site, the department supports this bill with 
amendments. This, as has been said previously, would redraw the 
boundary to include two parcels contiguous to the site to allow 
access and interpretation. The first is a parking lot, which 
would be exchanged with a school for a parking lot closer to 
the home, and the second is the apartment building immediately 
adjacent to the home, which would allow us to acquire in the 
future, should the owner decide to sell.
    The bill does preclude, as has been discussed earlier, 
appropriated funds being allowed for purchase. This is a 
commercial property. We see no reason that the owner should be 
precluded from selling the property to us and us acquiring it 
with appropriated funds--we don't want to put any strictures on 
him--and allow him to make a sale that is profitable to him.
    Finally, H.R. 640, which is the Santa Monica Mountains 
bill, the department again supports this bill. This would allow 
the adjustment of the authorized boundary to encompass a very 
important wildlife corridor and to protect key watersheds. If 
the private lands were to be left out, this would leave 
basically a hole in the donut of the boundary, and particularly 
the wildlife portions are very, very significant to protect the 
variety of wildlife, as several people have mentioned here.
    The acquisition would be by donation only, thus bringing 
the Federal Government very large contributions of land. There 
are 3,700 acres proposed to expansion. As has been said 
earlier, 2,800 of those are owned by the State agency mentioned 
earlier here. That would only leave 900 acres that are not 
owned by the Conservancy, and one-third are in neighborhoods, 
in two neighborhoods, and I think you have already heard about 
the letters of support.
    It is much easier to explain the boundaries to people and 
to do educational programs for them and have public awareness 
if we have a consistent, constant boundary without holes in it. 
We would continue to have no land requirements on non-Federal 
land, as we have for the many years that Santa Monica Mountains 
Recreation Area has been in existence.
    That concludes my remarks. I have with me the two 
superintendents, Art Eck, Superintendent of Santa Monica 
Mountains, and Kevin McMurray, who is Acting Superintendent of 
the William Howard Taft National Historic Site. If you have any 
questions, I would be happy to answer them, or with your 
permission invite them up to address any questions you might 
have. Thank you very much.
    [The prepared statements of Ms. Stevenson on H.R. 37, H.R. 
640, and H.R. 1000 follow:]

    Statement of Katherine Stevenson, Associate Director, Cultural 
  Resources Stewardship and Partnerships, National Park Service, U.S. 
                 Department of the Interior, on H.R. 37

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 37. This bill would amend 
the National Trails System Act to update the feasibility and 
suitability studies of the Oregon, California, Pony Express and Mormon 
Pioneer National Historic Trails (NHT).
    H.R. 37 would update the feasibility and suitability studies 
through the examination of additional routes and cutoffs not included 
in the initial studies of all four trails. The Secretary of the 
Interior would determine if some or all of these routes and cutoffs are 
eligible as additions to the four NHTs at the completion of these 
studies. Further, it would authorize the Secretary to make designations 
of any of these additional routes and cutoffs that she found eligible.
    The Department supports this legislation in concept, but will not 
consider requesting funding for updating the studies in this or the 
next fiscal year. Furthermore, in order to better plan for the future 
of our National Parks, we believe that any such studies should 
carefully examine the full life cycle operation and maintenance costs 
that would result from each alternative considered. We caution that our 
support of this legislation does not mean that the Secretary will make 
the recommended designations of additional routes upon completion of 
the studies. When the studies are completed, the Department will 
evaluate its progress on the President's Initiative to eliminate the 
deferred maintenance backlog and determine whether new designations are 
appropriate at that time.
    The feasibility study for the Oregon NHT was completed in 1977, the 
study for the Mormon Pioneer NHT in 1978, and the one for the 
California and Pony Express NHTs in 1987. Since those studies have been 
completed, dozens of additional routes and cutoffs have been identified 
which may qualify as integral parts of these trails. The National 
Trails System Act makes no provision by which such additional routes 
and cutoffs may be evaluated and added to national historic trails.
    The Oregon NHT, authorized in 1978, commemorates the ``primary 
route'' used by emigrants beginning in 1841 between Independence, 
Missouri and Oregon City, Oregon. Traveled by thousands, the trail 
contained many routes and cutoffs used through the years. These 
secondary routes had substantial emigrant traffic over several decades 
that demonstrate historical significance and are thus worthy of being 
examined in an updated study at the appropriate time.
    The authorization of the Mormon NHT in 1978 commemorates the 
journey of the pioneer party in 1846-1847 from Nauvoo, Illinois to Salt 
Lake City, Utah. As with the Oregon NHT, emigrant traffic occurred on 
many additional routes during the Mormon migration westward. Similarly 
with the other trails, these routes are more often than not coincident 
or shared with one another. As discussion ensued about the routes and 
cutoffs to be studied for possible addition, advocates of the Mormon 
Pioneer and Pony Express NHTs called attention to even more routes that 
needed to be reviewed. Preliminary data indicate traffic along those 
routes during the historic period and thus there are significant 
additional routes to be studied for these two trails.
    Authorized in 1992, the California NHT commemorates the gold rush 
to the Sierra Nevada. Dozens of routes and cutoffs were traveled by 
thousands of pioneers, but no single route dominated.
    The Pony Express NHT was included in the same authorizing 
legislation as the California NHT. It commemorates the efforts of this 
nation struggling to establish a system of communication across the 
Trans-Missouri west. The trail primarily follows routes beginning at 
St. Joseph, Missouri and ending in San Francisco, California. The firm 
of Russell, Majors, and Waddell, a western Missouri freighting company, 
set up and operated the Pony Express for one and a half years before it 
fell on hard times and ceased to exist. A short section of the trail, 
from the Missouri River into Kansas, also appears worthy of study and 
is included in H.R. 37.
    All four trails overlap one another in many locations and several 
of the routes and cutoffs proposed for study in H.R. 37 are already 
part of designated trails. These shared routes are prominent where the 
trails depart from various points along the Missouri River, 
particularly in the Kansas City, St. Joseph, Nebraska City, Council 
Bluffs and Omaha areas. Several other shared locations include routes 
in western Nebraska, Kansas, Colorado, Wyoming, Idaho, Nevada and 
California. Study and multiple designation at the appropriate time of 
several routes and cutoffs would assure greater historical accuracy 
along the trails.
    The National Trail System Act requires that studies of lands 
proposed for trails be made in consultation with federal, state, and 
local agencies, as well as nonprofit trail organizations, the entities 
that form the core of any partnership for national historic trails. 
Between 1994 and 1999, the National Park Service--in collaboration with 
the Bureau of Land Management, USDA Forest Service, trail advocacy 
groups and others--completed the Comprehensive Management and Use Plan 
and Environmental Impact Statement (1999) for the four trails. This was 
the initial plan for the recently established California and Pony 
Express NHTs as well as a revision of the plans for the earlier 
established Oregon and Mormon Pioneer NHTs. During the planning effort, 
trail advocacy groups pointed out that the feasibility studies for all 
four studies had failed to recognize many significant alternate routes 
and cutoffs. Consideration was given to including some of these routes 
in the comprehensive management plan, but they could not be, since they 
were not within the scope of the various trail feasibility studies, 
and, hence, not official parts of the trails. H.R. 37 would allow for 
the consideration of these additional alternates and cutoffs by 
authorizing an update of the original studies done for these four 
trails to see which ones are eligible for designation as NHT segments. 
During the study process authorized by H.R. 37, the Department of the 
Interior would work closely with federal agencies, state, local and 
tribal governments, local landowners and other interested parties, as 
well as trail advocacy groups to assure their interests are addressed.
    Historic trails cross public and private lands and the intent of 
the National Trails System Act is one of respecting private property 
rights. In so doing, the development of strong partnerships is critical 
to administering and managing the historic trails and achieving 
preservation of trail resources and interpretation of the trail to the 
public. The four national trails included in this legislation 
demonstrate the results of this type of effort.
    This concludes my testimony. I would be happy to respond to any 
questions that you or members of the subcommittee may have.
                                 ______
                                 
    [Map A and Map B follow:]
    [GRAPHIC] [TIFF OMITTED] T1929.007
    
    [GRAPHIC] [TIFF OMITTED] T1929.008
    
   Statement of Katherine H. Stevenson, Associate Director, Cultural 
  Resource Stewardship and Partnerships, National Park Service, U.S. 
                Department of the Interior, on H.R. 640

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 640, a bill to adjust the 
boundaries of Santa Monica Mountains National Recreation Area.
    The Department supports H.R. 640. This legislation will adjust the 
authorized boundary of Santa Monica Mountains National Recreation Area 
to encompass an important wildlife corridor and provide for the 
protection of a key watershed. The legislation requires that 
acquisition of lands within the expansion area be accomplished only 
through donation, a provision that reflects the high level of 
cooperation and strong commitment of local communities and governments 
toward the park.
    Furthermore, in light of the President's commitment to reducing the 
backlog of deferred maintenance needs within the National Park System 
before incurring additional financial burdens, it is important to note 
that this legislation authorizes the lands within the boundary 
adjustment area to be acquired by donation only. Therefore, no public 
funds will be required for land acquisition. In addition, life cycle 
operational and maintenance costs are expected to be minimal. The park 
anticipates providing only minimal facilities such as trails, 
emphasizing habitat preservation for wildlife movement. Since no 
development is contemplated within the boundary adjustment area, no 
line item construction or related operational funding will be required.
    Within the 3,697-acre expansion zone, three parcels of land 
totaling about 2,800 acres are owned by the Santa Monica Mountains 
Conservancy, an agency of the California Resources Department that was 
established in 1981 to complement and assist with the establishment of 
the Santa Monica Mountains National Recreation Area. The three parcels 
are the 2,300-acre Las Virgenes Canyon Dedication, the 390-acre Liberty 
Canyon tract, and the 107-acre Abrams property. These lands are held by 
the Conservancy on behalf of local governments, principally the 
governments of Ventura County and Los Angeles County, and are slated to 
be donated to the National Park Service once they have been included 
within the authorized boundary of the recreation area. H.R. 640 adjusts 
the boundary in order to accomplish this purpose.
    Acquisition of these lands is important in order to protect 
critical habitat required for the free movement and migration of 
wildlife between the Santa Monica Mountains and the Simi Hills, thereby 
preventing local extinction of species in the park. Together with 
existing National Park Service lands, the three parcels form the only 
remaining wildlife corridor in the region to connect with national 
forest lands to the north.
    In addition, this legislation enables the protection of a 
significant portion of Upper Las Virgenes Creek, which is part of the 
Malibu Creek Watershed, the largest freshwater system within the 
recreation area. The quality and condition of this watershed is of 
critical concern because it drains into Santa Monica Bay. The beaches 
of Santa Monica Mountains National Recreation Area, surrounding the Bay 
and running west from the Santa Monica Pier for 45 miles along the 
Malibu coastline, are principally managed by the Los Angeles Department 
of Beaches and Harbors and the California State Parks. In all, this 
complex of beaches supports in excess of 30 million recreation visits 
annually, which suggests that it is one of the most valuable recreation 
assets in California.
    Within the existing boundary of Santa Monica Mountains National 
Recreation Area, some 70 governmental jurisdictions operate and work 
together. Unlike many park areas where lands within the authorized 
boundary are almost entirely in federal ownership, there exists an 
extremely complex mosaic of publicly and privately owned lands within 
the recreation area's boundary. The entire city of Malibu, as well as 
portions of the Cities of Agoura Hills, Calabasas, Los Angeles, 
Thousand Oaks, and Westlake Village are within the current park 
boundaries. The National Park Service works cooperatively with other 
governments and private landowners, and shares its resource management 
knowledge with the local communities. The National Park Service, 
however, does not regulate land use on private or non-federal parklands 
within the park.
    In addition to the 2,800 acres that are owned by the Conservancy, 
approximately 900 acres of private and non-federal public lands are 
located within the expansion zone, including two neighborhoods that are 
situated within the Cities of Agoura Hills and Calabasas. The two 
neighborhoods comprise roughly 330 acres. The two cities, as well as 
the homeowner associations representing the neighborhoods concerned, 
are longtime supporters of the park and this legislation. We understand 
that letters in support the boundary enlargement have been provided to 
the subcommittee from each of these governments and associations. Under 
the classification process used by the park, the neighborhoods are 
designated as ``developed areas,'' where the National Park Service will 
not acquire lands.
    There are also lands within the expansion zone under the 
jurisdiction of Los Angeles County that are largely undeveloped, or 
held by the county to support operations such as the Calabasas 
landfill. The legislation would permit the National Park Service to 
accept these lands, only by donation, if it were determined that they 
could further park purposes.
    Mr. Chairman, we are pleased to support this proposal. In all, the 
lands reserved through the efforts of local communities and governments 
for transfer to the National Park Service may be worth as much as $60 
million under current market conditions. The legislation before you 
today is a testament to the cooperation and commitment of the citizens, 
local governments, and the park agencies in the Santa Monica Mountains.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.
                                 ______
                                 

   Statement of Katherine H. Stevenson, Associate Director, Cultural 
  Resource Stewardship and Partnerships, National Park Service, U.S. 
                Department of the Interior, on H.R. 1000

    Mr. Chairman, thank you for the opportunity to appear before the 
Subcommittee to present the position of the Department of the Interior 
on H.R. 1000, a bill to adjust the boundary and authorize an exchange 
of certain lands at William Howard Taft National Historic Site located 
in Cincinnati, Ohio. The Department of the Interior supports this bill 
with the amendments outlined in this testimony.
    The William Howard Taft National Historic Site, situated in a 
designated Historic District of the Mount Auburn section of Cincinnati, 
Ohio, is the only memorial to William Howard Taft, the nation's 27th 
President and 10th Chief Justice of the United States. William Howard 
Taft lived at the property that became the historic site from his birth 
in 1857 until his marriage to Helen ``Nellie'' Herron, in 1886. The 
Taft family sold the property in 1889.
    This unit of the National Park System was established by Public Law 
91-132 on December 2, 1969. The site was established specifically to 
``preserve in public ownership historically significant properties 
associated with the life of William Howard Taft.'' Prior to the 
establishment of the historic site the William Howard Taft Memorial 
Association began efforts to acquire and restore the Taft family home. 
In 1963 the association leased part of the house and began to restore 
it. In 1968 the association bought the property. In 1969 the home and 
its 1/2 acre of land was transferred to the United States Government. 
In 1972 an additional 1/3 acre of adjacent land was cleared of an 
existing apartment building and also donated to the Government by the 
William Howard Taft Memorial Association.
    H.R. 1000 would redraw the boundary of the Taft historic site to 
include two parcels of land that are presently contiguous to the site. 
The inclusion of these tracts within the site would benefit park 
visitors by giving them easier access to the site, and by enabling the 
Park Service to better tell the story associated with the site. In 
addition, H.R. 1000 would benefit the local community of Mount Auburn, 
as it would authorize the National Park Service to transfer a tract of 
land to a leading private educator of Cincinnati, the SABIS 
International School of Cincinnati (SABIS). This tract would enable 
SABIS, which operates a school across the street from the site, to 
better carry out its educational mission.
    The Taft Historic Site is bordered by Southern Avenue on the north, 
Auburn Avenue on the west, Young Street on the east, and Bodman Avenue 
on the south. The primary attractions for visitors are the Taft Home, 
and the Taft Education Center, which are both accessed from Auburn 
Avenue. However, to reach the Home or the Education Center, visitors 
must park along either heavily trafficked Auburn Avenue, or at the NPS 
parking lot, which is at the other end of the block, at the corner of 
Young Street and Southern Avenue. This lot is situated between two 
tracts owned by SABIS, and across the street from other land owned by 
SABIS. Thus, the lot is far more convenient for faculty, and parents of 
students attending the SABIS school, than it is for Taft site visitors.
    H.R. 1000 would enable the National Park Service to transfer this 
land to SABIS, which would enhance SABIS's ability to serve the 
community. In exchange, SABIS would transfer to the National Park 
Service a tract of land that it owns along Southern Avenue. The 
National Park Service would then develop part of this land into a 
parking lot, which would enable visitors to park one-half block closer 
to the Taft Home and Education Center than the present lot allows. The 
National Park Service would allow another part of this land to revert 
to the same character it possessed during the Taft years of 1857 to 
1899--green space. The National Park Service would also develop a 
handicapped accessible walking trail connecting to the site on part of 
this land to give visitors a better feel for how this land influenced 
the life of William Howard Taft. The bill also provides that if a real 
estate appraisal shows the NPS tract to be of a different value than 
the SABIS tract, additional funds or land may be used to equalize the 
transaction.
    H.R. 1000 would also bring within the park's boundary another 
tract, approximately three-fourths of an acre that is located at the 
intersection of Southern and Auburn Avenues. This property presently 
contains a residential building with 40 apartments. For the past 18 
years the National Park Service has rented administrative office space 
in this building. The parking lot for this building, which includes a 
Park Service easement, was brought within the boundary of the park by a 
1981 boundary modification. Over the last 15 years, this tract has come 
up for sale on two occasions. Both times the NPS wanted to acquire the 
property, but was unable to submit an offer because the property was 
not within the park boundary. This property has been identified in the 
master plan for the park as land that would further the mission of the 
park. While the National Park Service does not have a definitive plan 
for the use of this property at present, the tract could be used for a 
variety of purposes that would further the park mission. In determining 
the best use for this tract we would examine several alternatives, 
including using it to improve access to the site because of its 
location as a corner lot, and its potential for parking spaces; using 
it to aid us in telling the William Howard Taft story, as at least part 
of it could be restored to a condition similar to that which existed 
during the Taft years; and using at least part of it for administrative 
space, which would help the park carry out its business. H.R. 1000 
would give the National Park Service the authority to buy this property 
when it goes on the market in the future. Any potential modifications 
to the property would be accomplished only after consultation and 
collaboration with all identified stakeholders.
    While the two tracts of land that would be brought into the 
historic site by H.R. 1000 were not part of the original Taft estate, 
their acquisition would be consistent with the historic site's enabling 
legislation, which provides that the purpose of the site is to 
``preserve in public ownership historically significant properties 
associated with the life of William Howard Taft.'' These tracts are 
portions of land that was contiguous to the Taft property during the 
time William Howard Taft resided at the site, and are therefore 
historically significant properties associated with the life of William 
Howard Taft. In addition, these properties take on even greater 
significance in light of the fact that a large piece of the original 
Taft estate that fronts Bodman Avenue will in all likelihood never be 
available to the Park Service. Hamilton County constructed several 
buildings on this site in 1995, which it uses for a juvenile detention 
center. Thus, the acquisition of the tracts involved in H.R. 1000 may 
represent the last chance the Park Service has to deal with encroaching 
urban development that impedes its ability to carry out its mission at 
the historic site. Their acquisition is also consistent with the park's 
1981 Master Plan, which provides for the preservation of ``those 
elements from the historic period'', and states that the park shall 
``provide the appropriate opportunities for visitor use'' and 
``coordinate area planning and management activities with those of 
neighboring communities to attain mutual objectives''.
    The costs to the treasury associated with the two land transactions 
involved in H.R. 1000 are expected to be minimal. The annual operating 
costs that the Park Service would incur in taking over the SABIS 
parking lot would be offset by the costs the Park Service would forgo 
as a result of conveying the parking lot at Young Street and Southern 
Avenue to SABIS. The Park Service would incur nominal costs in 
developing a parking lot and walking trail along this property of 
approximately $65,000. Additionally, the government would not incur any 
significant cost in carrying out this land exchange, as the both 
properties are substantially equal in value.
    The property at Southern and Auburn Avenues has been assessed at 
$505,000. The level of operational costs associated with this site is 
unclear at this time because we do not have a definitive plan for the 
use of this property.
    We recommend some amendments to the language of H.R. 1000. As 
written, the bill would allow the National Park Service to purchase 
land by donation, by purchase with donated funds, or by exchange. This 
would preclude the National Park Service from using appropriated 
funds--including land and water conservation funds--to acquire the 
property located at Southern and Auburn Avenues. We are concerned that 
this prohibition could thwart the intention of the bill. This tract is 
commercially viable, and we have no indication that its owner would 
donate it to the National Park Service. Similarly, we are unaware of 
any third parties that might have resources readily available to 
acquire this property and donate it to the National Park Service. Nor 
are we aware of any exchange lands that might be available to 
facilitate the exchange. The National Park Service would not want to 
lose a third opportunity to acquire this property, which, as noted 
above, has been identified in the master plan for the park as land that 
would further the mission of the park and, as a corner lot, would round 
out the park. For these reasons, we urge that the bill be amended to 
allow the National Park Service to acquire this property with 
appropriated funds.
    We also propose two technical amendments to the bill. These are 
attached to this testimony.
    This concludes my testimony. I would be happy to answer any of your 
questions.

    Proposed Amendments to H.R. 1000:
    On page 2, line 12, strike ``448/80,225'', and insert `` 448/
80,025''.
    On page 2, line 24, strike ``United States of America'', and insert 
``USA''.
    On page 3, line 18, strike ``only''.
    On page 3, line 19, insert ``or appropriated'' after ``donated''.
                                 ______
                                 
    Mr. Hefley. Why don't you have them join you, if they would 
like to?
    Ms. Stevenson. Thank you, Mr. Chairman.
    Mr. Hefley. Regarding H.R. 37, you stated in your testimony 
that the administration supports the concept of the bill but 
will not consider requesting funding for updating the studies 
in this or the next fiscal year. Moreover, you stated, ``In 
order to better plan for the future of our national parks, we 
believe that such studies should carefully examine the full 
life cycle of operation and maintenance cost that would result 
from each alternative considered.''
    Is this another way of saying that the administration 
opposes any studies until the maintenance backlog for the 
National Park System has been better addressed?
    Ms. Stevenson. No, sir. In the case of this bill, we have 
commitments for 2002, and the first time we think we could take 
care of this would be 2003, in study money. We are not opposed 
to having studies. We believe very strongly in your bill that 
passed, is now a law, that requires us to do studies 
beforehand. We think that is a great addition to the process, 
and we look forward to working on this study.
    Mr. Hefley. Well, first of all, let me ask Mr. Gallegly if 
he would have questions of this witness or the superintendents.
    Mr. Gallegly. Mr. Chairman, I just have one brief question 
for Ms. Stevenson, with the Chair's concurrence.
    Ms. Stevenson, have all of the private property owners in 
the, what is it, 570 acres of publicly and privately owned 
land, been notified that they would be incorporated in this 
boundary extension?
    Ms. Stevenson. They have not been notified individually. We 
have done a very strong public process, including newspaper 
articles and public announcements, as part of the general 
management plan and in subsequent meetings. We have had 
individual meetings, not one-on-one but meeting with groups, to 
explain the process, explain what is going on. So in that 
sense, yes.
    Mr. Gallegly. Congressman Sherman mentioned that he had 
heard no opposition, and there was quite a broad divergence of 
philosophical priorities in that region in the years past. I 
represented that portion that Mr. Sherman represents now in the 
time prior to 1992, and I can attest to that.
    I have not had any comments to my office, as a result of 
this legislation, in a negative vein. Congressman Sherman has 
voiced the same thing. Has the Park Service had any concerns 
voiced or any opposition by any entity, public or private?
    Ms. Stevenson. May I ask Superintendent Eck to answer that 
question, please?
    Mr. Eck. Mr. Gallegly, I can assure you we have received no 
expression of opposition from any quarter.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Mr. Hefley. Would you explain to me, whoever wishes to do 
that, how it would work? You have got, right kind of in the 
middle of this corridor, you have got two cities or portions 
thereof. How would that work in terms of the Park Service, and 
how would that work in terms of the cities and the property 
owners there, if you would share that with me?
    Mr. Eck. Yes, I would be honored to share that with you. 
First of all, let me explain the Santa Monica Mountains 
National Recreation Area, when it was established in 1978, 
really is a cooperative effort of both the National Park 
Service, the State of California and its local governments, as 
well as private property owners.
    One of the things that is interesting about the park is 
that really the private homeowners within the National 
Recreation Area care every bit as much about the protection of 
those mountains as we do. You might be interested to know that 
the entire City of Malibu, for example, is within the National 
Recreation Area. There are probably, and I haven't seen the 
latest census figures, but there are probably over 50,000 
people living within the National Recreation Area. They will 
always live there. A portion of the Recreation Area, since the 
park was envisioned and established in 1978, it has always been 
understood that it would be private property.
    Jurisdiction in the Santa Monica Mountains National 
Recreation Area is exercised on the basis of ownership. Our 
jurisdiction extends to lands that we own. The State of 
California, for example, State park rangers, their jurisdiction 
extends to the State parklands that they control.
    As far as the significance, why this area needs to be 
added, this is the one wildlife corridor that ensures the 
perpetuation of the wildlife resources in the Santa Monica 
Mountains, along the whole 50-mile length of Highway 101 that 
forms pretty much the northern boundary of the Santa Monica 
Mountains, this is the one open wildland corridor that connects 
the Santa Monica Mountains to the mountains to the north.
    Mr. Hefley. Any other questions? Jimmy?
    Mr. Duncan. I am just curious. I don't really understand 
exactly what limitations there are, if any, on these private 
landowners, the 330 acres of developed residential areas, and 
some of the other parts, too. If a homeowner wanted to cut down 
all the trees in their back yard, and the neighbors around it 
objected and came to the Park Service, what would happen?
    Mr. Eck. Well, I think we would tell them that they would 
need to go somewhere else with their concern, because it is not 
within our jurisdiction.
    Mr. Duncan. So there are no restrictions or limitations 
that you can think of, big or small, on these homeowners?
    Mr. Eck. Not from the National Park Service. Now, Los 
Angeles County or the city government--
    Mr. Duncan. No, I am not talking, I am not worried about 
that. That is--
    Mr. Eck. Right.
    Mr. Duncan. But no restrictions, no limitations?
    Mr. Eck. Absolutely.
    Mr. Duncan. They can sell their property? They can sell 
their home if they want to?
    Mr. Eck. They do every day, yes.
    Mr. Duncan. And they can do anything that is legal under 
local laws?
    Mr. Eck. That is correct.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hefley. That is a good course of questioning, because 
that is one of the problems I have with having the cities in 
here.
    I think it is the National Parks and Conservation 
Association, which I read a letter by one of their officials 
recently which indicated that one of the goals that we should 
have for our National Park System is to have all motorized 
vehicles taken out of the parks. Now, that doesn't mean just 
skimobiles and personalized watercraft, but that means cars and 
everything.
    If that idiotic idea were to prevail, what would that mean 
to something like this, which is a unit of the park system but 
you have got the whole City of Santa Monica and you have these 
other cities. What would that mean?
    Ms. Stevenson. If I may, NPCA I am sure has the best of 
intentions in terms of motorized vehicles, but it is clear that 
that would never prevail in a park like this and should not 
prevail in a park like this.
    Mr. Hefley. Would you agree that that should not prevail in 
many of our national parks, such as Yellowstone and those kind 
of parks? And I am not talking about the issue of snowmobiles, 
I am talking about people being able to drive in and see the 
park.
    Ms. Stevenson. Some parks do have too many cars at some 
times of the year, and we are very anxious to find ways to 
transport people in ways that they like, while preserving the 
environment and allowing them the access that they need. And I 
don't think we know all the answers at this point, so I am not 
in a position to say yes or no, but it is not our goal to ban 
all cars from all parks.
    Mr. Hefley. Thank you very much.
    Mr. Duncan. Can I ask, there is a provision in this 
legislation that says this recreation area, that the purpose 
for the recreation area is ``to manage the area in a manner 
that will preserve and enhance its scenic natural and historic 
setting while providing for the recreational and educational 
needs of the visiting public.''
    Now, obviously all over the country there has been a lot of 
disagreement about what is scenic, and every inch of land in 
this country could be called historic. It has been there long 
before any of us got here. And what I am wondering about, once 
again, is if a private landowner wants to sell his property for 
some type of commercial development, say to put up a 
McDonald's, would you all have any ability to come in there 
under this legislation and stop that?
    Mr. Eck. No, we would have no ability.
    Mr. Duncan. In other words, if it is all right under local 
zoning laws--
    Mr. Eck. Right.
    Mr. Duncan. --then it is all right with you?
    Mr. Eck. Right.
    Mr. Duncan. Even if the whole neighborhood said, ``This 
McDonald's'' or this whatever ``is going to disrupt the scenery 
in this recreation area.''
    Mr. Eck. Well, I want to be clear, we have the same 
standing as any other private property owner, whether they own 
a quarter of an acre of land or 15 acres or whatever. So, I 
mean, conceivably we might write a letter to the planning 
commission and express, you know, reservations that we might 
have.
    Mr. Duncan. Well, I have got no problem with that--
    Mr. Eck. Right.
    Mr. Duncan. --because anybody in this country, whether they 
work for the Federal Government or not, should be allowed to 
express their opinion.
    Mr. Eck. Right.
    Mr. Duncan. But it would still be up to the local 
authorities.
    Mr. Eck. That is absolutely right. That is absolutely 
right.
    Mr. Duncan. All right. And the motorized vehicles that the 
Chairman was talking about, is there anything in this 
legislation that would restrict what they call off-road 
vehicles?
    Mr. Eck. No, and with respect to general motorized 
vehicles, I might just point out, through this area is Highway 
101, and it has 130,000 daily automobile trips through that 
very gap in that area, so it would be quite unfeasible to 
contemplate limiting motorized vehicles.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hefley. Well, in general terms I think the Park Service 
does a wonderful job of managing units such as this, and 
managing most of your units, as a matter of fact. But I would 
just emphasize something that Mr. Duncan stated, and that is, 
there are two charges of the Park Service, and one is to 
protect the resource and the other is provide for the enjoyment 
of the public of that resource.
    I hope we remember that and keep it in balance. I don't 
think it was always kept in balance by some members of the last 
administration, and I would hope that we would keep that in 
balance because that is very, very important. My childhood 
memories of experiences in the national park are some of my 
most cherished memories, and I would not want us to shut future 
generations out.
    So, any further questions? If not, I thank the panel and 
appreciate your being here.
    Our next panel will be made up of Mr. Bill Watson, the 
Oregon-California Trail Association; Jeanne Watson, the Oregon-
California Trail Association; Patrick Hearty, National Pony 
Express Association; and Mike Berger, Santa Monica Mountains 
Conservancy. I would assume it is not accidental that we have 
two Watsons on the panel. There may be some relation there.
    Mr. Watson. Only 47 years, sir.
    Mr. Hefley. Forty-seven years?
    Mr. Watson. Yes.
    Mr. Hefley. Well, congratulations.
    Mr. Watson. Thank you.
    Mr. Hefley. Do you have an order you would like to speak, 
or shall I just start over here at the left, Mr. Watson, with 
you?
    Mr. Watson. Whatever you would like.
    Mr. Hefley. Why don't you go ahead, then?
    Mr. Watson. All right, sir.
    Mr. Hefley. And we will move down the line.

    STATEMENT OF WILLIAM C. WATSON, OREGON-CALIFORNIA TRAIL 
                          ASSOCIATION

    Mr. Watson. Mr. Chairman, thank you very much for this 
third opportunity--
    Mr. Hefley. Excuse me. We will try to keep the statements 
to 5 minutes, if you can, and then we will have time for 
questions.
    Mr. Watson. Yes. Thank you.
    This is the third opportunity I have had to address this 
distinguished Subcommittee. In 1989 and 1991 it was under the 
heretofore Chairman, then Bruce Vento, who was very supportive, 
and that was to authorize the establishment of the California 
and the Pony Express Trails. In 1991 when we were here, the 
bill was sponsored by a good supporter, Congressman Bereuter 
from Nebraska. In that bill, by the way, we did agree that 
there would be no condemnation and no condemnation of Federal 
land leases, and at that point the House bill was accepted by 
the Senate and in 1992 became law. We appreciate your support.
    Our Oregon-California Trails Association is about 19 years 
old. We now have 4,200 members. Last year they donated over 
56,000 volunteer hours plus volunteered expenses, for a total 
value of about $1 million, to our trails. So we have active 
people working to help preserve the trails.
    But the question has been raised about all of these routes, 
and I would like to call your attention to the Park Service 
maps A and B. The lines, red, green, blue and so forth, 
identify routes to be studied. But the important thing is, as 
mentioned by Congressman Bereuter, the yellow shows that these 
are routes already part of a National Historic Trail.
    For example, the Cherokee has been proposed for study. It 
is endorsed by the Cherokee Nation. It was endorsed last year 
by the Governor of Oklahoma. Three hundred and fifty miles of 
it is already part of the Santa Fe National Historic Trail. So, 
for a lot of these, it is not a matter of adding miles to the 
trails system but adding additional trail logos to represent 
the other trails that used this same corridor, and we have 
asked for a slight change in the wording of H.R. 37 to reflect 
this situation.
    In Congressman Bereuter's ``Dear Colleague'' letter and 
also in his testimony, he pointed out concerns about 
condemnation of private land, no condemnation of private lands 
or Federal land leases. And we have worked regularly with 
private landowners, and the Trails Act offers them a site 
certification and access limits process, where a private 
landowner can say, ``We agree to participate,'' and ``they can 
close the land for no public access, have unlimited access, or 
even 1 day a year and specify what date.'' And many of the 
people along the trails, the Oregon and California Trails, are 
doing that today.
    Our KANSA Chapter in north central Kansas is working on a 
Park Service project with four ranch families to do 
nonobtrusive archaeological research of four grave sites on 
private land, and this has been well received. We had a slight 
problem with equipment freezing, but we expect to have results 
soon, and the landowners are delighted because this has been 
part of their heritage for 150 years.
    We have worked in South Pass with Exxon, as I testified in 
'91. We are now working with Wolverine Gas & Oil on a drilling 
process, and have a joint venture going with them on how to 
minimize the impact on the trail, and I guess it is working 
because the president of Wolverine just joined our Oregon-
California Trails Association.
    So with that, I would like to ask you to support this H.R. 
37 and thank you for your time.
    [The prepared statement of Mr. Watson follows:]

  Statement of William C. Watson, Co-Chair, Trails Liaison Committee, 
            Oregon-California Trails Association, on H.R. 37

    Chairman Hefley, Ranking Member Christian-Christensen and other 
Subcommittee members and guests, thank you very much for this third 
opportunity to testify before your distinguished Subcommittee. November 
7, 1989, and April 11, 1991, Chairman Bruce Vento invited us to testify 
in support of legislation to create the California and Pony Express 
National Historic Trails. It is nice to see a few familiar faces from 
our previous visits.
    Today, the Oregon-California Trails Association, National Pony 
Express Association, Mormon Trails Association and Iowa Mormon Trails 
Association jointly urge you to approve H.R. 37, authorizing the Update 
Feasibility Study for our trails.
    I would like to re-emphasizing several key points made in 
Congressman Doug Bereuter's March 13, 2001, Dear Colleague letter (copy 
attached) encouraging support and co-sponsorship of H.R. 37:
          ``This legislation should be non-controversial, as it would 
        simply recognize the fact that there are additional routes and 
        cutoffs which may deserve inclusion in the National Trails 
        System.''
          ``No condemnation of private lands or Federal leases is to be 
        contemplated to add any of these routes to the trails.'' This 
        agreement was made in 1992, before the trails were authorized, 
        to satisfy landowners & leaseholders concerns.
          ``Although the National Park service is supportive of efforts 
        to examine these additional routes, it has determined that 
        congressional legislation is needed to provide the 
        authorization.''
    We recognize that not every route proposed for study may meet the 
criteria of the National Trails Act and qualify for inclusion in the 
National Trails System. The Oregon and California routes proposed for 
study represent thousands of volunteer hours researching and retracing 
them. We request a slight change in H.R. 37 to recognize study routes 
shared with an established National Historic Trail. See yellow lines on 
Maps A&B.
OCTA/PRIVATE LANDOWNER COOPERATION
    Quoting from my April 10, 1991 testimony before this Subcommittee: 
``We also work with private landowners, calling attention to the 
importance of the overland trails, obtaining permission to mark trail 
ruts and emigrant graves, and requesting access to trail sites for 
special occasions.'' Any activities on private land are with the 
concurrence of the land owner/manager.
    The National Trails Act provides private landowners a opportunity 
for Site Certification. If the landowner elects Certification, an 
agreement is signed with the National Park Service which specifies 
public access: every day; one day a year and what date; no public 
access. Many private landowners have participated in Certification 
since the 1986 designation of the Oregon Trail and 1992 designation of 
the California & Pony Express Trails.
    Our KANSA Chapter in northeast Kansas is working with private 
landowners and the National Park Service using side-scan radar to do 
archaeological research of four emigrant grave sites without disturbing 
the ground. Like many private landowners, these ranch families have 
protected these graves for 160 years. At the end of the first day, the 
ranchers hosted a team pot luck dinner and KANSA members hosted the 
next night. Unfortunately, some equipment froze during this November 
trial, so this study will be completed after the spring thaw.
    The Oregon-California Trails Association's 19th annual convention 
will be in Casper, Wyoming, from August 15-18. Each year we meet at a 
different place along the trail. Two days are devoted to speakers on 
trail related subjects. Two more days are devoted to trail tours. Then, 
there are pre and post convention trail tours, many requiring 4-wheel 
drive. Wyoming chapter members working closely with private and public 
landowners make this year's tours possible. It is always a thrill to 
have local families show us the trail remnants across their land and to 
hear their history.
OCTA/ENERGY INDUSTRY COOPERATION
    Again quoting from my April 10, 1991, testimony before this 
Subcommittee: ``Over the last eight years (now 18 years), OCTA has 
worked with major corporations, such as EXXON and the Altamont Pipeline 
Co., to insure that the Overland Trails are disturbed as little as 
possible when public needs for energy resources require crossing routes 
of the pioneers.'' OCTA's cooperative efforts with EXXON and the 
resulting minimum impact on our four trails was featured in EXXON's 
corporate magazine.
    Last month, BLM, NPS, OCTA, Wyoming SHPO and Wolverine Gas & Oil 
representatives met in Rock Springs, Wyoming, to discuss proposed 
exploratory drilling of 3 wells near the Sandy Crossing and South Pass 
on BLM lands adjacent to the Oregon, California, Mormon Pioneer and 
Pony Express National Historic Trails.
    Over lunch, the Wolverine President and our National Preservation 
Officer discussed mutual concerns including a group of protest letters 
written by local fourth graders about this planned drilling. Wolverine 
plans to do lateral drilling at least one-quarter mile from the trail.
    OCTA and the NPS urged them to use an accordion approach in this 
rugged land so that the drilling is behind natural formations and not 
on top of them. Plans are to use an existing BLM road across the trail 
to move equipment and supplies. If a pipeline is required, hopefully, 
it will be under that BLM road.
    Our Preservation Officer met with the fourth graders that afternoon 
and told them not to blame Wolverine for working in historic South Pass 
because they were helping solve America's energy problem. He shared 
their concerns about protecting the trails and assured them that all 
participants in the morning meeting will be working together to 
minimize the trails impact of that work. By the way, the Wolverine 
President is now an OCTA member.
    Early day fur trappers and traders named the South Pass they used 
when crossing the Continental Divide at this location. On August 22, 
1843, Theodore Talbot (with the Fremont 2nd Expedition) wrote: ``Today 
we set foot in Oregon Territory, the land of promise. As of yet, it 
only promises an increased supply of sagebrush and sand.'' Elizabeth 
Dixon Smith's July 31, 1847, journal entry reads: ``Passed over one 
mountain and camped at the foot of South Pass. Here we found some 
gooseberries.'' And, August 1 she noted: ``Passed over the Rocky 
Mountains, the backbone of America.''
    As our Preservation Officer Dick Ackerman noted: ``These early 
travelers over this dirty, dusty rocky ribbon of a trail made a 
difference. They were settling the Pacific frontier and with these 
settlements made our country the ocean to ocean Nation that it is 
today. Today's travelers can share the pioneer experience. They can 
stand there and look both ways and try to imagine what it was like for 
those early travelers. This is why we need to do our best to keep it 
looking the same.''
    Last year, OCTA CA/NV chapter members worked with the U.S. Senate 
staff and the Nevada BLM to plan and create the Black Rock/High Rock 
National Conservation Area legislation that protects the California and 
Oregon Trails through that area while allowing continued multiple use 
of those lands. Today, OCTA chapter members continue their work with 
the BLM to plan and implement this National Conservation Area.
CALIFORNIA NATIONAL HISTORIC TRAIL
MISSOURI VALLEY ROUTES
    The 1987 California Trail Feasibility and Desirability Study 
assumed that: ``Most of theses ruts and traces are west of Casper, 
Wyoming, ...'' Subsequent extensive diary research plus ground searches 
by Oregon-California Trail Association members located numerous swales, 
ruts, remanent of river and creek crossings, etc., in the Missouri 
Valley. Many of these sites are on private land and have been preserved 
for 160 years as part of these proud landowners' family heritage.
    OCTA's research identified 19 Missouri Valley routes, shown in 
green, that are proposed for study under H.R. 37. Most will be multi-
use shared routes. For instance, OCTA/NPEA research indicates that Fort 
Leavenworth to Big Blue River Route was used by Oregon and California 
bound emigrants and Pony Express riders.
CENTRAL ROUTES
    Seven Central Routes proposed for study, shown in green, include 
the Cherokee Trail which has not been designated a National Trail. 
Because of its significance, the Cherokee is marked and preserved in 
Wyoming by the BLM and OCTA volunteers.
    Last year, at the request of the Wyoming BLM, OCTA contributed 
$5,000 toward BLM purchase of new concrete markers for the Cherokee 
Trail. This spring OCTA and the BLM will install those markers. So if 
the Cherokee Trail qualifies as a California trail route, it will not 
significantly increase the number of trail miles on Wyoming BLM land.
    The Cherokee Trail was under study and included in the draft 
California Trail Comprehensive Management Plan until a Solicitor's 
Opinion dropped it from the CMP. While under study, the Governor of 
Oklahoma wrote a letter to NPS Director Bob Stanton supporting the 
designation of the Cherokee Trail as a branch of the California 
National Historic Trail.
    The Cherokee Trail was used by native Americans, Anglos and blacks 
from Oklahoma Territory who went west for the California gold rush. The 
Cherokee Trail segment from Rawlins, WY, to Fort Bridger received heavy 
use by Mormon pioneers during the 1860s, making this a shared route. 
One segment of the Cherokee Trail shares one part of the Santa Fe 
National Historic Trail.
    A few weeks ago, we represented the Oregon-California Trails 
Association during the sixth Trails Advocacy Week. Mary Tidwell from 
the Trails Of Tears Association announced the Cherokee Nation's support 
for H.R. 37 and the inclusion of the Cherokee Trail as a route on the 
California Trail. Their support is greatly appreciated.
WESTERN ROUTES
    Eight Western routes, shown in green, are proposed for study under 
H.R. 37. Most of them were excluded from the original Feasibility Study 
or were ordered deleted from the Comprehensive Management Plan.
    For example, 1991 testimony noted the 150th anniversary of the 
Bidwell-Bartleson route which was deleted by Solicitor's Order from the 
final California Trail Comprehensive Management Plan.
    ``On May l2, l85l, the Bidwell-Bartleson Company left from the 
Kansas City area. They did not have a map showing the way to 
California, because none existed. Thirty-one men, one woman (Mrs. Nancy 
Kelsey) and her infant daughter began their journey by following the 
Oregon Trail, traveling west with other emigrants. About 560 miles 
beyond Fort Laramie, they left the established Oregon Trail to find a 
route across the unknown territory stretching to California. After 
leaving their wagons in the desert and wandering lost for days, the 
Bidwell-Bartleson party finally reached the Sierra Nevada mountains. 
They crossed somewhere near present day Sonora Pass and arrived in 
California on October 30, 1891. The accomplishments of the Bidwell-
Bartleson company, including those of Nancy Kelsey, who became the 
first white woman to cross the Sierras, will be widely celebrated this 
year.''
    The year 2001 is an excellent time to pass H.R. 37 and recognize 
the 160th anniversary of the first overland pioneers to reach 
California.
    The Carson Route is an authorized branch of the California Trail. 
It was developed from west to east by the Mormon Battalion as an easier 
route over the Sierras than the Truckee/Donner Route.
    A 71 mile long portion from Genoa, Nevada to Union House, 
California is a High Potential Segment where today's travelers can 
still share some of the emigrant experience. Our family has worked on 
preserving and interpreting about half this segment for 30 years. In 
Hope Valley, the Big Trees Route (proposed for study) cuts southwest 
from the Carson. It was used by many gold seekers headed for the 
southern mines.
    After the Carson Route crosses the Sierra it cuts northwest to 
Union House near Tragedy Spring. The Volcano Road study route continues 
west from the Carson to the Volcano gold rush town where Union 
sympathizers used a cannon to protect gold bullion from possible 
seizure by Confederate sympathizers.
    Our family works every summer as Forest Service Adopt-A-Trail 
volunteers marking and maintaining the top 2 1/2 miles of this segment 
from Emigrant Valley (elev. 8,000 ft.) up to Covered Wagon Summit and 
West Pass (elev. 9,600 ft.) In late June, we again will have three 
generations working on our adopted trail.
    The segment from Caples Lake up to Emigrant Valley is maintained by 
Kirkwood Mountain Resort Homeowners. The segment west from ours, used 
by high clearance vehicles since the late 1940s, is maintained by a 
Four Wheel Drive Club.
    A joint Forest Service/Kirkwood Mountain/OCTA plan will soon:
    <bullet> LEstablish additional ski runs without impairing the 
trail, including the new Emigrant (ski) Run down our trail;
    <bullet> LInstall trail interpretative signs on lift towers and the 
snack bar;
    <bullet> LCreate a new off-the-ruts wild flower trail for hikers & 
horses;
    <bullet> LProvide for new mountain bike trails off the Carson 
Route.
    Jeanne and I lead trail hikes for Kirkwood guests and employees and 
give public trail talks at Kirkwood and Kit Carson Lodge. A Kirkwood 
employee volunteer work day helped mark most of our Adopt-A-Trail 
segment.
SHARED CALIFORNIA & OREGON NATIONAL HISTORIC TRAILS
    California was the first designated multi-route National Historic 
Trail. Oregon was designated a point-to-point National Historic Trail 
with two alternate routes. Seven routes are proposed for study under 
H.R. 37.
    The Comprehensive Management Planning process, determined that 
seven designated California NHT Routes were shared by emigrants bound 
for Oregon. Plans to identify these shared Oregon Routes, shown in red 
and yellow, were barred by a Solicitor's Opinion. If authorized, no 
route miles would be added and the Oregon NHT marker would be installed 
by volunteers.
    The Applegate Route of the California NHT illustrates the problems 
created by the Solicitor's Order. The Applegate was used during the 
California gold rush and also was the Southern route to Oregon. It 
traverses over 300 miles through Southern Oregon, yet can not have 
Oregon NHT markers.
    Our Oregon OCTA members urge: ``Please pass H.R. 37 so we can put 
an Oregon NHT marker on the interpretive sign outside the Oregon State 
House in Salem.'' Today it just reads ``California National Historic 
Trail''. Designation of these Shared Routes would add trail logos and 
not significantly increase management costs.
CENSUS OF EMIGRANT DOCUMENTS (COED)
    Oregon-California Trails Association members developed the Census 
Of Emigrant Documents (COED) database which currently contains 
information from 2,263 emigrant diaries, letters and reminiscences 
about their trips along these trails. The research and entry data 
documentation was done by OCTA members and historical society 
volunteers. Some 64,271 emigrant names are currently contained in 
OCTA's COED database. This database is already being searched to begin 
producing emigrant quotes about the routes proposed for study under 
H.R. 37.
FOUR TRAILS GIS DATABASE
    Utah University is developing and operating the Oregon, California, 
Mormon Pioneer and Pony Express Trails GIS Database under contract with 
the National Park Service Long Distance Trails Office in Salt Lake 
City.
    Ninety-five percent of the initial Four Trails GPS mapping was done 
by volunteers using a variety of equipment, requiring different 
calibrations and adjustments, which complicated the University of 
Utah's development of this GIS Database.
    Even so, during last year's extreme fire emergency, this Database 
provided computer map files identifying our Four Trails routes, 
significant sites and segments for use by the Interagency Fire Control 
Center in Boise, ID. To our knowledge, none of the significant sites 
and segments identified for our four trails were damaged by fire. A 
number of wooden BLM Cherokee Trail markers were destroyed by wild 
fire. But, this route is not yet eligible for inclusion in the Four 
Trails GIS Database.
    OCTA contributed $5,000 toward cement replacement markers to be 
installed this spring by Wyoming OCTA volunteers and the BLM. Passage 
of H.R. 37 and completion of the study should allow the California 
National Historic Trail logo to be added on these BLM Cherokee Trail 
markers.
    OCTA is using National Park Service Challenge Cost Share dollars to 
purchase sophisticated GPS units and provide volunteer training on 
their use. This new input will allow the Four Trails GIS Database to 
pinpoint the location of Significant Sites and Segments, interpretive 
signs and kiosks, and even the location of installed trail markers for 
tracking purposes.
    In conclusion, we urge this House Resources Subcommittee on 
National Parks, Recreation and Public Lands to endorse H.R. 37. Thank 
you for your time. If you have any questions, we will gladly try to 
answer them or get answers for you.
                                 ______
                                 
    Mr. Hefley. Thank you.
    Mrs. Watson?

    STATEMENT OF JEANNE H. WATSON, OREGON-CALIFORNIA TRAIL 
                          ASSOCIATION

    Mrs. Watson. Thank you, Chairman Hefley and members of the 
Committee. I am speaking today on the Oregon National Historic 
Trail, which when it was designated in 1978, was considered a 
point-to-point route from Independence, Missouri to Oregon 
City. Well, not exactly.
    There are 11 other routes that were used by pioneers to the 
Oregon Territory. Two of these 11 routes go through the State 
of Washington, taking pioneers to the Puget Sound and Tacoma 
regions. There are three trails in Idaho that are considered by 
the BLM as part of the Oregon Trail. And in 1995 the Oregon 
State Legislature designated five of the trails in Oregon as 
important alternates to the Oregon Trail.
    It is ironic that the first trail to Oregon, opened in 
1836, has never been part of any National Historic Trail. This 
is the Whitman Mission Route, where the Whitmans and the 
Spauldings arrived to set up a mission with the Indians. 
Narcissa Whitman, wife of Dr. Marcus Whitman, wrote in 1840, 
``We are emphatically situated on the highway between the 
States and the Columbia River.'' In those days it was the 
Oregon Trail. And the Whitman Mission is today a national 
historic place, but yet the trail bypassed it after 1843 and 
44, so this route needs to be picked up and added to the Oregon 
Trail.
    Another one of the interesting examples is the Applegate 
route. It is listed only as part of the California National 
Historic Trail, yet it is the trail to southern Oregon and 
cannot be so marked. You can imagine how the Oregonians have 
reacted to this, when the sign for the Applegate Trail in front 
of the State House in Salem lists only ``California Trail.'' 
This occurred because in 1992 nothing was done to add trails to 
the Oregon National Historic Trail designation.
    The trail was opened in 1846 from west to east, 
intersecting the California Trail on the Humboldt River in 
Nevada. Today this segment is part of the newly established 
High Rock-Black Rock National Conservation Area that was passed 
and approved at the end of the last session of Congress.
    Californians using this route turned left and went into 
northern California, while the Oregonians went into the 
southern part of their State. So this needs to be rectified, 
and there are two branches of the Applegate route that led into 
northern California in the Gold Rush era, that are also 
included for addition in the California section of H.R. 37.
    To quickly cite just one more example, in Idaho the Goodale 
cutoff leads from Fort Hall to the Boise Valley, and in 1862 
there were more than 1,000 wagons with 900-plus men and 300 
women and children who made that crossing, opening this route 
for further traffic. It was used right up to 1904, until the 
railroad made it possible to abandon wagon travel into Idaho.
    So all of these routes, including the others of the 11 that 
I have not named and which are in my written testimony, deserve 
to be studied for inclusion in the National Historic Trails, 
and we are asking for your support for this study, for H.R. 37. 
Thank you.
    [The prepared statement of Mrs. Watson follows:]

  Statement of Jeanne H. Watson, Co-Chair, Trails Liaison Committee, 
  Oregon-California Trails Association (OCTA) and U.S. Forest Service 
                        Adopt-A-Trail Volunteer

Historic Trails to the ``Oregon County''
    In 1978 when the Oregon Trail was designated as a National Historic 
Trail it was generally considered to be a point-to-point route. Not 
exactly . . . . there are two alternates, one in Idaho and the other in 
Oregon, but another eleven pioneer trails to the Oregon Territory have 
been overlooked.
    In 1995 Oregon House Bill 2966 recognized five routes as 
``alternates'' of the Oregon Trail. Also listed separately in this bill 
is the ``Applegate (California) National Historic Trail'', designated 
in 1992 as part of the California National Historic Trail.
    Two other routes, used by pioneers crossing Oregon to settle in 
present-day Washington State, may be eligible for National Historic 
Trail designation. Three additional routes in Idaho are also considered 
cross-country segments of the Oregon National Historic Trail.
    Passage of H.R. 37 will allow studies of these eleven routes for 
possible addition to the Oregon National Historic Trail.
                        * * * * * * * * * * * *
    (1-OR) It seems rather ironic that the route of the first Oregon 
pioneers has not been designated as part of the Oregon Trail. For years 
the Whitman Mission Route, first traveled in 1836, was THE Oregon 
Trail. As Narcissa Whitman wrote in 1840: ``We are emphatically 
situated on the highway between the States and the Columbia River.'' 
Narcissa and her husband, Dr. Marcus Whitman, along with the Rev. Henry 
Spaulding and wife, Eliza, were Presbyterian missionaries from upper 
New York State. Narcissa and Eliza, the first white women to cross the 
Rocky Mountains, are remembered with a special marker at South Pass. 
Their company took a two-wheel cart to Oregon, proving wheeled vehicles 
could make the trip successfully. The Whitman Mission Route served as 
the main stem of the Oregon Trail during the earliest years of the mass 
overland migrations but later bypassed by the route in 1978 designated 
as the Oregon National Historic Trail.
    The Whitman Mission National Historic Site at Walla Walla, WA, 
interprets this trail story and its link with Native Americans as do 
signs by the Oregon Trail Coordinating Council. Exhibits also interpret 
this history at Tamastslikt Cultural Institute on the Umatilla Indian 
Reservation near Pendleton, OR.
    (2-OR) In 1843-44 the Upper Columbia River Route became the only 
trail to the Willamette Valley. A day's horseback journey west of the 
Whitman Mission, it started at a Hudson Bay Company post, where 
emigrants built rafts to float down the river to The Dalles, a 
treacherous trip with loss of lives and belongings. The Applegate 
family experienced such tragedy in 1843 when the river claimed the 
lives of two 10-year-old cousins and another family member as a boat 
upset in a whirlpool.
    Emigrants could avoid the river by traveling along the bank, 
negotiating steep cliffs and rocky shorelines. In 1844 Oregon emigrants 
found a way to bypass the Whitman Mission completely by following the 
Umatilla River to the Columbia, saving several days' travel. By the 
late 1840s use had declined as emigrants followed new trails across the 
desert south of the river.
    Oregon Trail Coordinating Council signs interpret this route at two 
kiosks and it is included in exhibits at the Columbia Gorge Discovery 
Center in The Dalles.
    (3-OR) Although listed as part of the California and Pony Express 
National Historic Trails in 1992, the Applegate Route has never been 
included as part of Oregon National Historic Trail. Although also known 
as the Southern Route to Oregon, it can only be marked with California 
Trail signs, including one near the State Capitol in Salem, Oregon. 
Oregon pioneers traveling this southern route left the Oregon Trail at 
the Raft River to continue towards California before going north across 
Nevada to Oregon.
    The Applegate route, opened in 1846 by brothers Jesse and Lindsay 
Applegate to avoid the Columbia River, served as an alternate southern 
route; opened from west to east it met the California Trail along the 
Humboldt River. Jesse Applegate lead the first company of 200 Oregon 
pioneers with nearly 100 wagons. The route was used by both Oregon 
pioneers and California-bound emigrants, who turned off to reach 
northern California. After the 1848 discovery of gold, Oregonians 
followed the Applegate Route to reach the northern California mines via 
the Lassen Cutoff. Peter Burnett (later governor of Oregon) led 150 
pioneers with 50 wagons from Oregon City, taking the first wheeled 
vehicles to Peter Lassen's ranch in the Sacramento Valley.
    Although used for a decade, the Burnett Cutoff is not designated as 
part of any National Historic Trail. Neither is the 1852 trail, which 
leads from the Applegate route south of lower Klamath Lake to the Yreka 
(CA) area. As ``shared routes,'' the Applegate Trail and these cutoffs 
should be marked as part of both the Oregon and California National 
Historic Trails.
    The Applegate Trail winds through the newly established Black Rock 
Desert and High Rock Canyon National Conservation Area in Nevada. 
Interpretation also includes 18 signs placed along the route in Oregon 
by the Applegate Trail Coalition with support from the Oregon Trails 
Coordinating Council to complement existing signs, exhibits and 
commemorative markers. Museums and historical societies in southern 
counties of Oregon have cooperated in publication of a trail guide for 
this Southern Route.
    (4-OR) The Oregon Legislative Assembly proclaimed 1995 as the 
``Year of the Meek Cutoff Trail,'' opened 150 years earlier by 1,000 
persons with 200 wagons. This route, named for leader Stephen Meek, 
crossed the middle of Oregon through high desert to the central Cascade 
mountains. It is the most infamous of Oregon Trail route because the 
company became lost and could not find water; at least 23 persons died 
during the 52-day ordeal. Rescue parties were sent from The Dalles, 
with help from mountain man Moses ``Black'' Harris.
    The Meek Cutoff has been interpreted with several Oregon historical 
markers and BLM signs along the route and an exhibit at the High Desert 
Museum in Bend, OR.
    (5-OR) An Oregon Trail route used from 1848 to 1884, this 1847 
Cutoff to the Barlow Road made it easier for emigrants to cross the 
Cascades to Oregon City. The Cutoff saved 100 miles as well as a week 
of travel time but could require three days to cross the Deschutes 
River before a bridge was built in 1852. (The Barlow Road section of 
the Oregon National Historic Trail provided an alternative route around 
Mount Hood.)
    This Cutoff is interpreted with BLM signs, an Oregon Trails 
Coordinating Council kiosk and Oregon historic markers as well as 
driving tours and brochures by the Sherman County Historical Society.
    (6-OR) The Free Emigrant Road, opened in 1853, followed part of the 
Meek cutoff before turning south and then west to continue north to 
settlements at Eugene City. The Elijah Elliott train with 215 wagons 
successfully crossed the desert in 1853 but became stranded in the 
Cascade Mountains. A 70-mile waterless stretch followed by October snow 
and freezing mountain temperatures required rescue by a relief party. 
In 1854 William Macy succeeded in leading 121 wagons across both the 
desert and the Cascades following the newly completed Free Emigrant 
Road, so named because no toll was charged (unlike the Barlow Road). 
The road continued to be used through the 1860s with nearly 500 wagons 
and 2,500 persons traveling to the Willamette Valley.
    To date no interpretive facilities exist. As Charlotte Pengra 
commented in 1853 ``all are afraid to try it'' because at that time 
nothing was known about the route.
    (7-WA) Established in 1845, the Cowlitz River Route led from the 
river's headwaters to the southern tip of Puget Sound. Among early 
settlers were the first black emigrants to the Pacific Northwest, 
including the founder of the present-day Centralia.
    Ezra Meeker, who followed this trail in 1852, became the first 
Oregon Trail preservationist when he realized in 1906 the pioneer trail 
was fast disappearing. He found an old wagon (now on exhibit at the 
Washington State Museum in Tacoma) and began retracing the trail with 
an ox team. Meeker presented programs and put up commemorative markers, 
with school children often contributing pennies. Many of his markers 
still survive including one at South Pass. Upon reaching the east cost 
Meeker drove his wagon down Wall Street in New York City and later 
parked on the lawn of the Capitol in Washington DC. His preservation 
efforts to save the trail also included trips along the Oregon Trail by 
car, train and airplane. Today these markers still provide 
interpretation of this trail.
    (8-WA) Connecting Fort Walla Walla (site of the Whitman Mission) to 
the Puget Sound, the Naches Pass Trail was opened in 1853. It bypassed 
both the Columbia River and the Willamette Valley and was known as the 
``Walla Walla to Steilacoom Pioneer Citizen's Trail.'' Although it 
required 68 river crossings, it saved 200 miles of travel. The existing 
trail was improved for wagon travel in 1853 when Congress appropriated 
$20,000 and Captain George McClellan (future Civil War general) 
supervised clearing it for military use. Ezra Meeker, who traveled the 
Oregon Trail six times, followed this route in 1854.
    In 1910 the Washington and Oregon Historical Societies joined to 
mark the Naches Pass Trail. Other interpretive activities include 
signing programs at various sites.
    (9-ID) The Northside Alternate followed the north side of the Snake 
River from the vicinity of Fort Hall, passing Shoshone Falls, to the 
Thousand Springs area where it connected with the North Alternate 
Oregon Trail (see 10-ID). The first Bishop to Oregon followed this 
route in 1847 on horseback, while his wagons took the trail south of 
the river to Three Island Crossing. In 1852 Dr. Thomas White found by 
going along this northwest route to Fort Boise the distance could be 
``shortened nearly in half'' and also had better grass and water.
    In 1993 a BLM and Idaho State Historical Society trails publication 
stated additional research was needed to determine trail usage but 
surface evidence plus early township survey plats indicate heavy wagon 
use.
    (10-ID) In 1852 a ferry established above Salmon Falls made it 
possible for emigrants to cross the Snake River to the north side. At 
Teapot Dome this route followed the main trail to Boise. Known as the 
North Alternate, in 1847 the Northside Alternate (9-ID) connected with 
it while in 1869 Kelton Road, a freight and stage route, used it. The 
North Alternate avoided a dry and difficult stretch of the Oregon Trail 
from Salmon Falls across the desert to Three Island Crossing, where it 
became the main northern route.
    The North Alternate is interpreted at Malad Gorge State Park with 
additional segments marked by the Hagerman Historical Society. BLM 
white posts also mark this route, determined to be eligible for listing 
on the National Register of Historic Places. The story of the Oregon 
Trail in this region is also interpreted by a BLM site and park at 
Bonneville Point.
    (11-ID) The Goodale Cutoff began on the north side of the Snake 
River at Ft. Hall and rejoined the Oregon Trail south of Boise Valley 
on the north side of the Snake River. It crossed the Lost River and 
Camus Prairie following a traditional Shoshone Indian route, avoiding 
an Oregon Trail loop along the Snake River. It was named for Tim 
Goodale, a trader in the Snake Country, who lead a large combined wagon 
train in 1862 across this route [known as the Jeffrey Cutoff but used 
only in 1853-54]. According to Nellie Slater the 1862 company consisted 
of 1,238 wagons with 998 men and 300 women and children.
    This Cutoff required a ``dreaded drive'' through ankle-deep dust 
before reaching good water and feed on the Camus Prairie, according to 
Julius Merrill in 1864. It followed the perimeter of Craters of the 
Moon National Monument Area and is included in the National Register of 
Historic Places. Wagons followed the Goodale Cutoff as late as 1904. 
Later Goodale opened a north-west continuation of his Cutoff, crossing 
the Powder River to join the Oregon Trail below Flagstaff Hill near 
Baker City, Oregon.
    Preservation includes granite highway markers plus marking on 
public lands by BLM and the OCTA-Idaho chapter. It is included on the 
1990 official Idaho highway map and in 1994 covered wagons rolled along 
this route during a re-enactment, as occurred along several Oregon 
Trail routes during the 1993-94 sesquicentennial celebrations.
                                SOURCES
    Oregon Historic Trails Report, Oregon Trail Coordinating Council, 
1998;
    An Initiative for Significant Historic Trail Routes in Oregon and 
Washington, Oregon Trail Coordinating Council and OCTA - Northwest 
Chapter, 1995
    Emigrant Trails of Southern Idaho, Bureau of Land Management and 
Idaho State Historical Society, 1993
    Routes of the Oregon Trail in Idaho, Bicentennial Commission Idaho 
Historical Society and Idaho Transportation Department, 1976
    Overland Journal, OCTA, 1990 and 1996
                                 ______
                                 
    Mr. Hefley. Let the record show that I don't think Mrs. 
Watson used notes to do that. You are quite a historian, and we 
appreciate that. That is very, very interesting.
    Mrs. Watson. Well, I came from New Jersey after 25 years 
there, and as Rush Holt will tell you, I can name New Jersey 
and Maryland pioneers as well, at the drop of a hat.
    Mr. Hefley. Great. Mr. Hearty?

 STATEMENT OF PATRICK HEARTY, NATIONAL PONY EXPRESS ASSOCIATION

    Mr. Hearty. Thank you, Mr. Chairman, distinguished members 
of the Subcommittee, and friends. Unlike the Watsons, I am a 
rookie here, and unlike Mrs. Watson, I cannot do this 
unprompted.
    But I would also like to speak on behalf of bill H.R. 37, 
which will impact the four long distance National Historic 
Trails, which are specifically the Oregon, California, Mormon 
Pioneer, and the Pony Express Trails. And in the time that I am 
allotted, I would like to offer three thoughts regarding this 
bill which are largely in concert with the statements of my 
trail colleagues.
    First I would like to emphasize the importance of this bill 
to expand the scope of the National Historic Trails. The Mormon 
Pioneer National Historic Trail, as presently authorized, was 
put together in the same fashion as the Oregon Trail, as a 
point-to-point trail. It includes only the 1846 and 1847 route 
followed by Brigham Young with the initial party called the 
Vanguard Company.
    Subsequent groups of Mormon pioneers crossing Iowa traveled 
well to the north on trails that were mostly shared by other 
westward immigrants, thereby avoiding major problems with mud 
along the original trail. Also, the routes of the handcart 
companies, which are largely across Iowa, are similarly not 
included in the National Historic Trail as it presently exists. 
Further west in Wyoming, the trail of the wagon trains sent out 
from Great Salt Lake City in the 1860's to pick up emigrants 
from the railhead--they were called the ``down and back'' 
companies--this trail also is not recognized as part of the 
Historic Trail.
    An estimated 70,000 members of the Church of Jesus Christ 
of Latter Day Saints traveled the emigrant trails to Utah 
Territory prior to 1869, when the railroad was completed, the 
transcontinental railroad. The present Mormon Pioneer National 
Historic Trail adequately tells the story of less than 200 of 
these.
    Second, I wish to reassure you that the establishment of 
the National Historic Trails is in no way detrimental to the 
rights of private landowners along these trails. The National 
Pony Express Association, which I represent, goes to great 
lengths to maintain good relations with both the private and 
public landowners and managers.
    We conduct an annual horseback reenactment along the Pony 
Express Trail, wherein a leather mail pouch or ``mochila'' 
which is filled with commemorative letters is relayed nearly 
2,000 miles between St. Joseph, Missouri and Sacramento, 
California, and a significant number of the participants, of 
over 500 participants in this re-ride, are farmers and ranchers 
who own land along the trail.
    For example, in western Utah three generations of the David 
Bagley family ride and carry the mail at Willow Springs Ranch 
in Callao, Utah, where there stands the remains of an original 
Pony Express station. They pass the mail to Rex Claridge, owner 
of Six Mile Ranch a little bit further to the west. Out in 
Nebraska, farmers like Scott Wolf and Leonard Hilton and many 
others are leaders within the Association. They and others have 
been known to literally shut off the tractor, saddle a horse to 
take part in the re-ride, then put up the horse and return to 
the tractor, and these examples are repeated up and down the 
trail during our re-ride in the month of June. The Pony Express 
National Historic Trail is and should be a source of pride to 
those who work and live on the land where the history was made.
    Finally, I would like to remind you of the critical 
importance of preserving our heritage through vehicles such as 
the National Historic Trails. In an increasingly hectic and 
fast-paced world, there is a need and a yearning to connect 
with simpler times. This connection can be found on the trails 
of our pioneer forebears.
    Many young people in our society seem to lack a sense of 
where they belong in the world in terms of time and place, and 
some turn to violent and self-destructive behavior in their 
search for identity. The historic trails can offer them an 
opportunity to learn through experience and feeling what has 
gone before, and hopefully help them to gain an understanding 
of who they are and where they are going.
    Thank you once again for the opportunity to speak today. I 
also respectfully request your favorable consideration for H.R. 
37, to preserve and to protect these National Historic Trails.
    [The prepared statement of Mr. Hearty follows:]

Statement of Patrick Hearty, National Trails Committee Chair, National 
               Pony Express Association, Inc.,on H.R. 37

    Chairman Hefley and distinguished members of the House Subcommittee 
on National Parks, Recreation, and Public Lands, I am grateful for the 
opportunity to testify in favor of H.R. 37, a bill which would amend 
the National Trails System Act to allow an update of the feasibility 
and suitability studies of four long distance National Historic Trails, 
providing for possible additions to these trails. The National Pony 
Express Association is pleased to support this legislation.
    H.R. 37 would allow study of the feasibility and suitability of 
additional routes and variants of the four long distance National 
Historic Trails administered by the National Park Service Long Distance 
Trails Office in Salt Lake City, Utah. The trails affected are the 
Oregon, California, Mormon Pioneer, and Pony Express National Historic 
Trails. The effect of this legislation would be to provide the 
Secretary of the Interior with information regarding the 
appropriateness of inclusion of additional routes and cutoffs as part 
of the officially designated National Historic Trails.
    The origins of the problems with these trails as presently 
designated have been documented elsewhere and will not be reiterated 
here (see the testimony of Jere L. Krakow, Superintendent of the NPS 
Long Distance Trails Office). I would first like to discuss the 
commitment of the National Pony Express Association to commemoration 
and marking of the Pony Express National Historic Trail, and to the 
promulgation of the history of the great enterprise we know as the Pony 
Express.
    The National Pony Express Association (NPEA) was incorporated in 
California in 1978, ``organized for the perpetuation and recognition of 
the historical running of the Pony Express.'' Our major activity each 
year is a horseback re-enactment of the Pony Express, wherein a leather 
mail pouch, or ``mochila,'' is relayed over approximately 2000 miles 
between St. Joseph, MO, and Sacramento, CA. Participants come primarily 
from the eight states crossed by the Pony Express Trail, but also 
include members who reside in other states and several foreign 
countries. Each state division also participates locally in parades and 
fairs, provides programs for school and civic groups, and is engaged in 
maintenance and marking projects on the trail itself.
    NPEA has received national and international recognition while 
carrying U.S. mail on horseback around a highway-closing mudslide in 
American River Canyon, CA, in 1983, and while participating in the 
Olympic Torch Relay in Colorado, Nebraska, Kansas, and Missouri, prior 
to the 1996 Summer Olympic Games in Atlanta, GA. Our members have been 
invited to ride in the Tournament of Roses Parade in Pasadena, CA, and 
in the ``We the People'' Parade in Philadelphia, PA, in 1986. We have 
enjoyed numerous other high-profile opportunities to share our pride in 
the history and heritage of the American West.
    During the year 2000, NPEA members donated over 25,000 volunteer 
hours, valued at over $350,000, and traveled more than 204,000 miles in 
support of the Pony Express National Historic Trail. This volunteer 
effort, valued at more than $411,000, comes from an organization of 
approximately 800 members, having an annual operating budget of 
$14,000. This time and effort are directed toward a wide variety of 
projects, such as trail construction and clearance of storm damage in 
California, marking the National Historic Trail across portions of 
Nevada, and delivery of Christmas cards by Pony Express to hospitalized 
children in Utah. Assistance with interpretive displays is being 
provided for the Trails Interpretive Center in Casper, WY, and for the 
Platte River Arch in Nebraska. In Julesburg, CO, a new bronze statue 
honoring the riders of the Pony Express is being built. Trail marking 
and scholarship programs in Kansas, and educational initiatives in 
Missouri are helping the public to enjoy the story of the Pony Express, 
and to know where significant events took place.
    The National Pony Express Association works closely with our 
Federal partners, the National Park Service, which has administrative 
responsibility for the Trail, and the Bureau of Land Management and 
National Forest Service, whose lands contain major portions of the 
Trail in the western states. The association has cooperative agreements 
and memoranda of understanding with the BLM and the Forest Service, 
covering our activities on public lands under their jurisdiction. Park 
Service Challenge Cost Share Grants are being used for projects in 
several states, the largest being a $13,600 grant to our California 
Division to help build a bridge and otherwise improve public access to 
the Pony Express Trail. We are extremely grateful for the work done by 
dedicated employees of these agencies, and we are proud to be the 
primary volunteer organization with whom they work on matters 
pertaining to the Pony Express National Historic Trail.
    The NPEA also strives to maintain an excellent rapport with 
ranchers and local land owners whose lands are crossed by the Pony 
Express Trail. The 1992 legislation authorizing the Pony Express 
National Historic Trail leaves all private property rights firmly in 
the hands of the land owners. Sites and trial segments may be certified 
and recognized by the National Park Service, at the request of the 
landowner, but such certification provides no guarantee of access to 
the general public, or to members of the managing agencies or volunteer 
groups. All decisions regarding access, trail marking, interpretation, 
etc., are left to the owner. A number of our members and re-ride 
participants are, however, ranchers and farmers who are proud to 
commemorate the important historic events which crossed their land. 
Examples include Gary Barker, who serves as ride captain in Wyoming, 
leading a group of riders across his family ranch on Yellow Creek, 
south of Evanston, WY. Three generations of the Anderson family, owners 
of Willow Springs Ranch in western Utah, take part in the re-ride, and 
offer hospitality and a tour of a Pony Express station to members 
during the annual re-enactment. Near Seneca, Kansas, a Pony Express 
silhouette is being placed on property owned be Robert Runback. Many, 
many other examples exist of ranch families and land owners to whom 
NPEA activities offer an opportunity to show their pride in their 
heritage.
    It is my hope that the preceding description of the dedication and 
depth of involvement of the members of the National Pony Express 
Association will help you to understand how highly we value our 
National Historic Trails. Federal dollars invested in the historic 
trails are leveraged many times over by volunteer groups such as NPEA. 
Your support of H.R. 37, as well as other legislation and initiatives 
benefiting our historic trails makes our effort seem worthwhile.
    I have also been asked to speak on the importance of H.R. 37 to the 
Mormon Pioneer National Historic Trail. I hope that my status as a 
native Utahn, and past chairman of the Utah Historic Trails Consortium 
will serve as adequate credentials. Information for this testimony has 
been provided by the Mormon Trails Association in Utah, and by the Iowa 
Mormon Trails Association.
    The Mormon Pioneer National Historic Trail, as authorized in 1978, 
recognizes only the 1846-47 route followed by Brigham Young's group, 
known as the Vanguard Company. In the subsequent years prior to 1869, 
when the railroad was completed, a number of other routes were followed 
by Mormon emigrants on their way to Utah Territory. Most of those 
leaving Nauvoo in later companies traveled across Iowa on trails well 
north of Brigham Young's ``Vanguard'' route. Another significant 
example, also found in Iowa., is the route followed by the ``Handcart 
Pioneers.'' A total of 2,962 people traveled west using handcarts, most 
in the years 1856 and 1857. In the words of Loren Horton of the Iowa 
Mormon Trails Association, ``The significance of this number of people 
making a journey of that distance using such equipment is unparalleled 
in the history of the frontier development in the United States.--
    In the years 1864-67, approximately 6500 westbound Mormon emigrants 
used what is called the ``Nebraska City Cutoff'' across eastern 
Nebraska, as they left the Missouri River to begin the westward trek. 
In central Wyoming in the late 1860's Mormon pioneers traveled on a 
portion of the Cherokee Trail. On their final approach to Great Salt 
Lake City, many followed Parley P. Pratt's ``Golden Pass Road,'' 
roughly along the route of modern-day Interstate 80. For details of the 
trail routes proposed for further study, please refer to Maps A and B, 
provided by the National Park Service. A complete listing of Mormon 
emigrant routes traveled, and frequency of use has been compiled by 
Mormon Trail scholar Ron Andersen.
    Most of the Mormon Trail cut-offs and variants proposed for further 
study were also used by Oregon and California bound pioneers. Some are 
already designated as portions of the California National Historic 
Trail. It is important that these shared routes receive recognition as 
part of each National Historic Trail to which they pertain, so that a 
more complete story of the westward migration can be told along the 
trails. Inclusion of the appropriate shared routes will not add massive 
numbers of miles to the trails. It will add greatly to the ability of 
the Federal managers and volunteer groups to provide the public with a 
more full an accurate picture of the opening of the West.
    As with NPEA, the Mormon Trails Associations contribute massively 
to the trails. The estimated contributions to the Mormon Pioneer Trail 
for the year 2000 were 35,350 hours, 106,500 miles traveled, and out of 
pocket expenses of $26,700. The total value of these contributions is 
calculated at over $553,000. Once again, the federal dollars allocated 
for the National Historic Trails are matched many times over by the 
efforts of dedicated volunteers who work closely with the federal 
partners in support of the trails.
    As has been explained regarding the Pony Express Trail, 
authorization of additional segments of the Mormon Pioneer National 
Historic Trail will have no undesired effect on private lands. Land 
owners will have complete control over visitation and access. No 
wording regarding condemnation of private property is contained in the 
original 1978 authorizing legislation, and none is sought in the 
current bill.
    The stories of the trails tell the history of the westward 
expansion of our nation in the nineteenth century, of reaching out to 
grasp the ``manifest destiny'' foreseen by the founding fathers. The 
stories of adventure, the tales of sacrifice and hardship, need to be 
remembered and retold, as do the stories of injustices and broken 
promises. There are lessons for each of us in the chronicles of those 
times. The public today seems to have an unprecedented interest in 
trail history. In the fast-paced world in which we live, there exists a 
great yearning to connect with a simpler time. There is also a great 
desire to learn of our ancestors, to know where they traveled, what 
they did and what they built. We can follow the trails they followed, 
and maybe see some of the things they saw, maybe know some of the 
feelings they felt. These opportunities must be preserved for the 
future.
    Perhaps the paramount reason for preserving the trails and their 
history lies with the youth. Too many young people in our society grow 
up with no sense of who they are, or where they fit in terms of time 
and place. They seek to compensate for their lack of direction by 
indulgence in violent or self destructive behavior. Connecting with 
Historic Trails could help young people to see history as a story on 
the land, rather than merely a list of dates and places in a book. By 
finding out where they come from, they may begin to grasp a sense of 
who the are and where they are going.
    Once again, I respectfully request your favorable consideration for 
H.R. 37. Our lives and those of our posterity will be immeasurably 
enriched by the preservation of the National Historic Trails. Thank 
You.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Hearty.
    Mr. Berger, on a different subject.

 STATEMENT OF MICHAEL BERGER, CHAIRMAN, SANTA MONICA MOUNTAINS 
                          CONSERVANCY

    Mr. Berger. Thank you, Mr. Chairman and Committee members, 
for allowing me to address H.R. 640, which is a bill to extend 
the Santa Monica Mountains National Recreation Area. I have 
personally worked in the--well, I am the Chair of the Santa 
Monica Mountains Conservancy, and I have worked over 15 years 
with open space recreation and education issues in the southern 
California area. I have lived there 31 years, but I have been 
directly involved with this type of thing for the last 15-plus.
    I feel this addition to the National Recreation area is 
important because, one, the wildlife corridor issue. In the 
early 1990's this wildlife corridor concept became known. The 
connection of this area of the Santa Monica Mountains to an 
area called the Simi Hills is critical for major mammal 
populations, and then the Simi Hills go on and connect with the 
Angeles National Forest and the Las Padres National Forest, 
which are rather large national forest areas which allow for 
biological diversity. So that becomes rather critical for 
things like bobcats, mountain lions. They need to get a little 
different genes in there.
    It is the watershed of the Malibu Creek, which is within 
that Santa Monica Mountains zone. This bill would also allow 
private landowners in the area to work more closely with the 
National Park Service. And then it would also provide access 
for residents of Los Angeles and Ventura County for hiking, 
biking and equestrian trails. Even though we live in a very 
urban area, we have horses, and so they are out on the trails 
quite commonly.
    I would like to point out that the Santa Monica Mountains 
Conservancy does not hold land. We buy land and give it to 
other agencies. For example, we have transferred Zuma Canyon, 
Circle X Ranch, Peter Strauss Ranch, also called Lake 
Incantanto, Palo Comadal Canyon, those have all been 
transferred to the National Park Service through the Santa 
Monica Mountains Conservancy.
    The Santa Monica Mountains Conservancy has acquired the 
land in question, as far as the land we that we own, with the 
purpose, the intent of transferring it over to another agency. 
We like to transfer them to agencies that know how to run them. 
In other words, our job is to buy them, buy the land, and then 
we find the person or the group that can best run that land.
    So H.R. 640 would enable the legal boundaries to reflect 
the true topographical and biological boundaries in that area, 
and I would ask your support, and thank you for letting me 
speak on it.
    [The prepared statement of Mr. Berger follows:]

 Statement of The Honorable Michael Berger, Chairperson, Santa Monica 
                   Mountains Conservancy, on H.R. 640

    Chairman Hefley and Members of the Subcommittee:
    My name is Michael Berger, I have the honor to chair the Santa 
Monica Mountains Conservancy; my appointing authority to the 
Conservancy is the Ventura County Board of Supervisors. I also serve as 
an elected director of the Conejo Recreation and Park District which 
serves the greater Thousand Oaks community in Ventura County, and I am 
a member and the immediate past chair of the Mountains Recreation and 
Conservation Authority, a joint powers agency comprised of the Santa 
Monica Mountains Conservancy and the Conejo and Rancho Simi recreation 
and park districts. The Mountains Recreation and Conservation 
Authority, although a separate legal entity, functions as the 
operations arm of the Santa Monica Mountains Conservancy and when 
referring to the Santa Monica Mountains Conservancy in this testimony 
such reference will be inclusive of the Authority as well.
    The Santa Monica Mountains Conservancy is the principal agency of 
the State of California charged with the protection of the natural 
resources of the Santa Monica Mountains Zone. Since its establishment 
in 1980, the Santa Monica Mountains Conservancy has acquired almost 
50,000 acres of public open space and parkland in the Santa Monica 
Mountains and surrounding mountain ranges in Los Angeles and Ventura 
Counties. Under California law, the Conservancy succeeds to and is 
vested with the responsibility previously vested in the Santa Monica 
Mountains Comprehensive Planning Commission for the maintenance and 
enforcement of the Santa Monica Mountains Comprehensive Plan that was 
prepared pursuant to Section 507(n) of the National Parks and 
Recreation Act of 1978 and approved by the Secretary of the Interior.
    We are pleased to appear before you today in support of H.R. 640, 
the Santa Monica Mountains National Recreation Area Boundary Adjustment 
Act. This measure would expand the boundary of the Santa Monica 
Mountains NRA by the addition of the ``Wildlife Corridor Expansion 
Zone'' consisting of the Liberty Canyon wildlife corridor at its 
critical transition between the Simi Hills and the Santa Monica 
Mountains and the headwaters of Las Virgenes Creek in the Simi Hills. 
All of these areas are within the larger watershed of Malibu Creek 
within the Santa Monica Mountains Zone as identified in the Santa 
Monica Mountains Comprehensive Plan.
    The addition of the ``Wildlife Corridor Expansion Zone'' is a 
necessary expansion of the Santa Monica Mountains NRA boundary to take 
into consideration the scientific knowledge we have gained since the 
SMMNRA legislation was first enacted in 1978.
    In the early 1990's two studies were conducted of the biological 
interrelationships between the Santa Monica Mountains ecosystem and the 
adjacent mountain ranges to the north. The work of Dr. Michael Soule, 
one of the founders of conservation biology in this country, done for 
the National Park Service, and a study done by Paul Edelman for the 
Nature Conservancy conclusively showed that the Santa Monica Mountains 
are a part of a much larger regional ecosystem consisting not only of 
the Santa Monica Mountains, but also of the Simi Hills, the Santa 
Susana Mountains, and ultimately leading into the great ``genetic 
reservoirs'' of protected land in the Los Padres and Angeles National 
Forests. The original boundary of the SMMNRA acknowledged this 
connectivity by extending the NRA north of the Ventura Freeway (US 101) 
to encompass Palo Comado and Cheesebro Canyons. The Soule and Edelman 
studies demonstrated that the actual connectivity between the Simi 
Hills and Santa Monica Mountains ecosystems was best achieved in 
Liberty Canyon and in the upper Las Virgenes Creek watershed.
    These scientific findings motivated a land acquisition policy by 
the Santa Monica Mountains Conservancy that emphasized protection of 
the Liberty Canyon wildlife corridor and upper Las Virgenes Canyon to 
the extent of acquiring more than 3,330 acres by purchase or dedication 
since 1991. Starting with the Liberty Canyon purchase of over 400 
acres, greatly added by the Ahmanson Ranch dedication of over 2600 
acres in the upper Las Virgenes Creek watershed, and finally 
culminating in acquisition of the connecting properties between Malibu 
Creek State Park and the Liberty Canyon ownership north of the Ventura 
Freeway (U.S. Highway 101). The most recent of these acquisitions, the 
106 acre Abrams parcel, was just dedicated last month in a ceremony 
that recognized the great cooperation between all levels of government 
that characterizes the Santa Monica Mountains NRA. The Abrams property 
is the key connection between the Santa Monica Mountains and Simi 
Hills, the narrow point in the hour glass, if you will, between these 
two ecosystems. It was acquired by the Santa Monica Mountains 
Conservancy using funds provided by the Los Angeles County Sanitation 
Districts as part of a landfill permit mitigation required by the 
National Park Service.
    Unfortunately, although forming an indispensable connection between 
the Simi Hills and the Santa Monica Mountains, this wildlife corridor 
is outside the boundary of the Santa Monica Mountains Recreation Area. 
H.R. 640 would remedy this situation.
    H.R. 640 provides that land within the Wildlife Corridor Expansion 
Zone can be acquired by the National Park Service only by donation or 
expenditure of donated funds. The Santa Monica Mountains Conservancy 
has a long history of land transfers to the National Park Service. 
Indeed, some of the most beautiful portions of the National Recreation 
Area--including Zuma Canyon, Circle X Ranch, Peter Strauss Ranch, even 
Palo Comado Canyon itself--were transactions where the Santa Monica 
Mountains Conservancy had first acquired the property.
    The Conservancy expects to continue this policy upon enactment of 
H.R. 640. The Liberty Canyon parcels, both north and south of Highway 
101 would be donated to the park service immediately upon request. The 
upper Las Virgenes Creek watershed (Ahmanson Ranch dedication) would be 
transferred at an appropriate time once the Conservancy's continued 
responsibilities with respect to this property have been fulfilled.
    Mr. Chairman, H.R. 640 is an important piece of legislation. At 
this stage in the history of the SMMNRA, nothing is more important than 
establishing legal boundaries for the Recreation Area that reflect the 
true topographical and biological relationships that define this unique 
unit of the National Park System.
    I am happy to respond to any questions the subcommittee may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much. I am particularly 
impressed with the quality of testimony of all of you. You are 
very helpful to our deliberations on this.
    Let me ask, do you have any questions?
    Mr. Souder. May I make a brief comment?
    Mr. Hefley. Yes, go right ahead.
    Mr. Souder. I am anxious to learn more about the Santa 
Monica area. That is part of the Ronald Reagan Museum Trail 
from the museum to the coast, which those of us who are Reagan 
fans have done a number of times, including me. So I know it is 
a very beautiful area, and I think it would make a great 
addition, and look forward to working with you on that.
    I wanted to express a reservation and then hear a comment 
on the national trails question, because in looking at the map 
we were provided, and I am a history buff but I also admit to, 
like many other history buffs, liking to see, preferring to see 
history in a more simplistic version than all the different 
cutoffs going every which direction.
    And I think that a lot of the concept of the Oregon Trail, 
the Mormon Trail, the Santa Fe Trail and so on, is that there 
was a clear, basic path that was different than what we saw in 
the Midwest and East. And when you start adding tons of cutoffs 
to that, that were comparatively minor compared to the major 
trail, and don't have some kind of a clear statement in it that 
differentiates the central trail from the cutoffs, you have 
less that a compelling case of why that trail is nationally 
significant.
    For example, my family was Amish. My great-great, probably 
great grandfather was one of the first Amish settlers in 
Indiana in 1846, and there was a distinct pattern of how they 
moved from Philadelphia, Lancaster, to north Pennsylvania, to 
Ohio, and up to the northwest part, and then Indiana, and they 
walked it. But of course other immigrant groups in Indiana 
followed other trails.
    New Jersey, you could do all kinds of cutoffs depending on 
what groups came in and how they went to different areas. And 
we literally, almost every road in America at one point was a 
trail or a cutoff to a trail where somebody said, ``Let's go 
form this town.'' Sometimes it was walking, sometimes it was 
horseback, sometimes it was canal, sometimes it was railroad, 
later auto. And in reality our highways are modern forms of 
trails.
    Were you proposing a system that would make, in this study, 
a very clear differentiation between what is a main trail and a 
cutoff, or are you saying that the cutoffs were used almost as 
frequently as the main trail, which in my opinion would 
undermine the concept of the Pony Express, Oregon, Mormon 
Trails?
    Mr. Watson. First of all, we recognize that not every 
proposed route may meet the standards of the Park Service and 
qualify for addition. What happened was, when the California 
Trail was initially studied, the assumption was that there was 
almost no marking of the trail, no remnants left, until you 
reached about Casper, Wyoming. Our 4,200 members have proved, 
they have found traces, they have found river crossings that 
were heavily used, and that is what we are asking to study.
    Furthermore, we have, if I might for just a moment, we have 
a census of immigrant documents that has been built by our 
members. It has 2,200, I think it is, documents in it, diaries, 
reminiscences, with 65,000 names of immigrants that crossed, 
but it makes reference to points on the trail. And this 
material will be used to help substantiate the need for adding 
these routes.
    Mr. Souder. Well, I would ask for the record that we 
certainly sustain the concept of the primary and the secondary. 
Santa Fe clearly had a split, Bent's Fort and the Cimmaron 
Cutoff, but what I see in that drawing is so much proliferation 
as almost to obscure the concept of a primary trail, and I 
think that we need to make sure we do that when we work through 
the trail system.
    Thank you very much for your interesting testimony from all 
of you today.
    Mr. Hearty. And if I can offer a little clarification, as I 
think Jeanne already mentioned, many of these routes are 
already designated as California National Historic Trail where 
they were also used by Mormon pioneers and also used by Oregon-
bound emigrants, and this will largely allow us to tell a more 
complete story, to say that there was more than just--that 
other people were on that trail, other than just the 
California-bound group.
    Mrs. Watson. And part of the reason for H.R. 37, to allow a 
study, is to prove or disprove which were routes that were used 
by a large number of pioneers and which may have been only used 
1 year by 10 wagons. Nobody is saying that every one of these 
routes will qualify, but that we need to study them to make 
sure we tell the complete story of the westward movement.
    Mr. Hefley. Thank you very much for those comments. Let me 
ask, I know that a lot of these trails are designated by a sign 
on the highway and so forth. Through southern Colorado, the 
Santa Fe Trail is like that in a lot of places. But is it your 
goal to open up as many of these as possible to actually trails 
again, to make them trails that people can enjoy? Is that the 
goal?
    Mrs. Watson. We don't build trails like the scenic trails 
can do. We walk in the ruts and mark the ruts. And in the 
national forest in California, up in the Amador Ranger 
District, our family has spent 30 years clearing brush, marking 
trail, working with friends, families and volunteers, including 
volunteers from the Kirkwood Mountain Ski Resort, to identify 
the trail.
    In fact, this year they have just put up Burma Shave style 
labels on the ski lift, so skiers will know that they are 
crossing the trail, and there will be a run called Emigrant 
Trail where they can ski in winter on top of the snow. Our 
problem at this point is, how do you mark that area above the 
tree line?
    But these trails do exist. We are not going to be building 
trail. If it doesn't exist, there is a gap in it, and that is 
usually where you pick it up on the highway and go to the next 
access spot, whether it is a visitor's center, a kiosk, a 
private landowner letting you on, or a national forest or BLM 
land. And you can actually walk in pioneer ruts.
    Mr. Hefley. Thank you. For this corridor that you testified 
about, Mr. Berger, is it your contention also that there is no 
opposition out there to doing this--cities, counties, people?
    Mr. Berger. I have heard no opposition. Fran Pavley, who is 
a State Assembly person, used to--I am a school principal--she 
used to be a teacher under me, and she has expressed support of 
this, and she was mayor of the City of Agoura, which is in this 
area, and she has not heard of any complaints that I know of, 
either. I have heard no complaints on this. It allows them to 
work more closely with the National Park Service. A good 
relationship there, very good relationship.
    Mr. Hefley. Any other questions or comments?
    Well, we appreciate the testimony. The Watsons, we 
appreciate your family for doing this. Private people who are 
interested in maintaining our history I think is very, very 
important.
    My great-grandfather was in the Civil War in the Fourth 
Illinois Cavalry, I believe it was, and was captured early in 
the war. And that was the time when they traded prisoners back 
but then you couldn't fight anymore, so since he couldn't fight 
anymore, he went to California, and I would be interested to 
know which of these trails he followed to California.
    But in the process he was walking behind the wagons--I have 
never known exactly why my family couldn't afford a horse--but 
he was walking behind the wagons, and the wagon turned up a 
knife. And it was with a bone handle, and it was a knife, and 
that is still in the family. It was used down through the years 
with the family, and now I have that knife, which I cherish.
    And I look at it, and you wish that knife could talk to 
you. Who owned that knife before our family got hold of it? It 
would be wonderful to know, and I guess there is no way we will 
ever know because I don't think there was any written history 
kept of it, as to how he got to California, but he did. So I am 
very interested in what you all do.
    Yes, Mr. Watson?
    Mr. Watson. If we could, if we can get that name, we will 
run a search of our computer database, and it can turn up names 
and then gives information on where. Because one of the things 
that happened--see, we have roughly 2,200 diaries, etcetera, 
but they mention 65,000 names because they say, ``Well, we were 
camped next to,'' or what have you. So if we can get your 
ancestor's name, we will get a quick scan made.
    Mr. Hefley. I had no idea, and we will do that. I would 
love for you to do that. That would be very, very interesting.
    Well, thank you very much. If there are no further 
questions, if I can find a hammer here to be official, the 
Committee stands adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]


</pre></body></html>
